<html>
<title> - LOCAL PREVENTION AND RESPONSE CAPABILITIES</title>
<body><pre>[Senate Hearing 107-336]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-336
 
               LOCAL PREVENTION AND RESPONSE CAPABILITIES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                    OCTOBER 25, 2001--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                       U. S. GOVERNMENT PRINTING OFFICE
78-208                         WASHINGTON : 2002
___________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001

                                 ______
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

           Subcommittee on VA, HUD, and Independent Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     CONRAD BURNS, Montana
ROBERT C. BYRD, West Virginia        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
ERNEST F. HOLLINGS, South Carolina   MIKE DeWINE, Ohio
                                     TED STEVENS, Alaska, (ex officio)

                           Professional Staff

                             Paul Carliner
                           Gabriel A. Batkin
                              Alexa Sewell
                         Jon Kamarck (Minority)
                          Cheh Kim (Minority)

                         Administrative Support

                         Isaac Green (Minority)







                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Barbara A. Mikulski.................     1
Coordination.....................................................     1
Statement of Senator Christopher S. Bond.........................     3
Statement of Senator Harry Reid..................................     3
Statement of Hon. Martin O'Malley, Mayor, City of Baltimore......     4
Planning and assessment..........................................     5
Increased local costs............................................     5
Federal programs need better coordination........................     7
Prepared statement of Hon. Martin O'Malley.......................     8
The new paradigm for homeland security...........................     8
Baltimore's interim homeland security response...................     9
Local homeland security: extraordinary costs.....................     9
A new Federal response is needed.................................    10
Homeland defense block grant.....................................    11
The role of the private sector...................................    11
Statement of Hon. Jeff Griffin, Mayor, City of Reno, Nevada......    12
Local governments, access to FEMA programs.......................    13
Prepared statement of Hon. Jeff Griffin..........................    14
Public information...............................................    17
Statement of Hon. Susan Savage, Mayor, City of Tulsa, Oklahoma...    18
Disaster preparedness............................................    18
Local access to FEMA programs....................................    19
Local communities on the front lines.............................    20
Statement of Hon. Ronald Kirk, Mayor, City of Dallas, Texas......    21
Local government and homeland security...........................    22
FEMA fire grants.................................................    23
Prepared statement of Hon. Ronald Kirk...........................    23
The city's use of Department of Justice Domestic Preparedness 
  Program funding (Nunn-Lugar-Domenici)..........................    24
The FEMA fire grant program......................................    24
The need for additional resources................................    24
The city's relationships with FEMA...............................    25
Improving Federal coordination...................................    26
Direct access to FEMA............................................    26
First responders as reservists...................................    27
Interagency coordination on homeland security....................    28
Open records requirements........................................    29
Interaction with the Office of Homeland Security.................    31
Lead Federal agency..............................................    32
Homeland Security Block Grant Program............................    37
Public vs. private security responsibilities.....................    38


               LOCAL PREVENTION AND RESPONSE CAPABILITIES

                              ----------                              


                       THURSDAY, OCTOBER 25, 2001

                           U.S. Senate,    
               Subcommittee on VA, HUD, and
                              Independent Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:06 p.m., in room SC-5, the 
Capitol, Hon. Barbara A. Mikulski (chairman) presiding.
    Present: Senators Mikulski and Bond.
    Also present: Senator Reid.


            opening statement of senator barbara a. mikulski


    Senator Mikulski. The VA-HUD Subcommittee will come to 
order.
    The chair will welcome other Senators as they so appear. I 
know that our ranking member, Senator Kit Bond, is on the 
floor. Ordinarily I would wait for his arrival. Honoring the 
fact of Mayor Griffin's schedule and many of yours and Senator 
Reid's, we are going to start this hearing.
    Let me start the hearing by saying, why are you here before 
the Subcommittee on Appropriations on VA, HUD, and Independent 
Agencies? Well, you're here because this is the subcommittee 
that funds the Federal Emergency Management Agency. This agency 
has the responsibility for consequence management.
    In our country, we have our CIA and State Department and 
Defense Department that are working overseas. Here in the 
United States of America, the FBI has responsibility for crisis 
management, meaning to detect, prevent, disrupt, and destroy 
any of the predatory acts on the United States of America and 
gather the evidence to prosecute anyone who would undertake 
such a despicable deed.
    Consequence management belongs to the Federal Emergency 
Management Agency, and as we are working through our new 
approaches on homeland security, we wanted to hear from those 
of you on the front line.


                              coordination


    I come from the Baltimore City Council. I know that not 
only are all politics local, but all problem solving is local. 
And we want to be sure that not only is the Federal Government 
on the side of local communities, but we hear from local 
communities what they need. This is why we are so pleased to 
welcome the Conference of Mayors here today.
    We know about the mayors. I just recently visited with 
Mayor O'Malley in his own command and control center where we 
have done an evaluation of is Baltimore ready and also our 
response to the fact that Baltimore was under a possible attack 
as little as just a week ago.
    Just the other night, I walked the halls of D.C. General 
Hospital with Mayor Williams and the Mayor of Cleveland who had 
come to be there and the Mayor of New Orleans. But Mayor 
Williams was at D.C. General responding to our Post Office 
employees. Though they worked in D.C., they were District of 
Columbia constituents and the State of Maryland constituents. 
Mayor Williams was taking responsibility not only for the 
District of Columbia but for those of us who lived in Maryland 
but worked in the District. So, the mayors are there on the 
front line.
    You should know that I am very concerned. I'm concerned 
about how prepared we are, how coordinated we are, whether you 
have gotten the resources to match your responsibilities. I am 
also concerned that the recent anthrax attacks really placed 
our preparedness in the spotlight. I am concerned that our 
recent response, certainly in my own capital region here, was 
unclear and uncoordinated not because of Mayor Williams, not 
because of County Executive Duncan or County Executive Curry, 
but I believe that our Homeland Security did not have their act 
together.
    I am sending a letter to Governor Ridge. I have great 
respect for Governor Ridge. He is a combat vet and has 
extensive executive experience. But I want you to know that in 
that letter, I am asking him to take as much charge of Homeland 
Security as Rumsfeld has done for Defense. When we look at 
Defense, we have three people in charge. They're clear. They're 
coordinated. They're talking to the President. They're talking 
to the American people and they're giving excellent direction 
to those who are on the battlefield. But for those of you who 
are on the battlefield of homeland security, I do not think we 
have that same clear, coordinated, resource-rich responsibility 
that we need.
    So, in my letter to Governor Ridge, again I ask that we 
have a battle plan for homeland defense to match the battle 
plan for the military. We need a battle plan in which we manage 
the incident and we manage the fear around the incident. We 
need to have clear communication with the leaders in local 
communities, as well as the public, just as Rumsfeld tells us 
what is going on. I now know more about what missiles went into 
what caves in Afghanistan than I know about what letters went 
where in the State of Maryland with anthrax. This is 
unacceptable.
    So, we need a clear chain of command. And I believe 
Governor Ridge is up to the task. But we need to be able to 
shape with him our ideas, our experiences. We have now had some 
experiences, and I think if we all work together--you are 
already fit for duty, but because you continually face these 
incredible high alerts, we need to make sure that you have the 
resources to match your responsibilities.
    So, we look forward from hearing from you. We look forward 
to working with you. And you need to know we are working on a 
bipartisan basis. This is my Republican colleague. Working on 
homeland security, we are neither Democrat nor Republican. We 
are the Red, White and Blue Party, and we are here to work with 
you and to work for our great Nation.
    So, having said that, Senator Bond, do you have any opening 
remarks you wish to make?


                statement of senator christopher s. bond


    Senator Bond. I will wait until the applause finishes, 
Madam Chair.
    It is always a pleasure to work with you. What she said is 
correct, that we do work together in a very bipartisan fashion. 
I think we have some very challenging and interesting areas 
under the jurisdiction of the Subcommittee of VA, HUD, and 
Independent Agencies of the Appropriations Committee.
    But Senator Mikulski and I, for a number of years, as we 
work on issues related to the Federal Emergency Management 
Agency, have been calling for greater coordination and 
cooperation, greater funding, greater preparation. I do not 
think any of us could have foreseen the tragedy that afflicted 
this country on September 11 and the ensuing activities with 
anthrax and the tragic deaths and the widespread concern that 
that has caused or the fact that now we have a pretty good idea 
that terrorist attacks are going to continue by some other 
means in some other venue for some time.
    Nevertheless, we have raised the concern, and Senator 
Mikulski has long called for greater coordination, the 
development of doctrine on how we can utilize all of our 
resources and to make sure that the people on the ground, the 
mayors, the local officials, who are the first ones there, know 
how the State is going to come in, know how the Federal 
Government is going to come in.
    In addition to this duty, I serve as co-chair of the 
National Guard Caucus, and the National Guard is in every 
community. We want to make sure they are trained because they 
are there. They know the streets. They know the people. Very 
often they are even engaged in government or related work. So, 
they can come in, but we have to bring in other Federal 
resources and bring in the Federal Emergency Management Agency.
    So, these are all concerns, and I am delighted that you are 
here to give us the answers.
    So, Madam Chair, thank you.
    Senator Mikulski. Thank you very much, as always.
    Senator Reid, our colleague from Nevada, also a member of 
the Appropriations Committee.


                    statement of senator harry reid


    Senator Reid. Madam Chair, I appreciate your allowing me to 
be at this subcommittee. As you know, I am not a member of the 
subcommittee, but a member of the full committee.
    I wanted to be here today for several reasons. One is to 
recognize your mayor and my mayor, and our mayors, but also to 
introduce to you one of the two mayors of the two metropolitan 
areas we have in Nevada, Las Vegas and Reno. Mayor Griffin is 
the Mayor of Reno, Nevada. It is the second largest 
metropolitan we have in Nevada. It has a great tradition.
    And Mayor Griffin has worked through some very, very 
difficult items and areas during his tenure as mayor. Like all 
mayors, they are on the firing line every day. We are back here 
away from our constituents. At least Senator Bond and I are. 
You are with them every day, Senator Mikulski, but most Members 
of the Senate are not so close to home as Senator Mikulski. And 
I respect and admire the work that mayors do.
    As I said to a group of mayors yesterday that I had the 
opportunity to visit with, every day you deal with problems 
where the buck stops right there. You have nobody to pass it on 
to. I think because of this, we really need to listen to you on 
this war that we are fighting now because the battlefronts on 
domestic terrorism are going to be in your cities.
    So, I am, as usual, very impressed with the work that is 
done in this subcommittee. They are always on the cutting edge 
of things that are important to America. They have such 
important jurisdiction of matters that are appropriated every 
year, and I commend them and applaud them for the work they do 
always, but particularly today for holding this most important 
hearing.
    I would like to be excused. I have to go to another 
meeting.
    Senator Mikulski. Thank you very much.
    Mayor O'Malley, we welcome you, of course, as the Mayor of 
the City of Baltimore. I know that you have been a leader in 
the Conference of Mayors on the issues around new prevention 
and response to homeland security issues. According to the list 
given me, it says Mayor O'Malley, Mayor Griffin, Mayor Savage, 
and Mayor Kirk. Is that the order in which you would like to be 
able to proceed?
    Mr. O'Malley. That is fine unless Mayor Griffin needs to 
go.
    Senator Mikulski. Mayor O'Malley, why do we not ask you to 
begin the testimony. We, of course, want to welcome you as the 
Mayor of Baltimore and someone who has taken the leadership in 
really looking at how municipal governments need to be ready, 
be able to respond, and be able to recover. We know that you 
have a lot of observations about the Federal Government that I 
am sure you will share with your usual candor and frankness. We 
welcome you.
    Mr. O'Malley. Is that a warning, Madam Chair?
    Senator Mikulski. No. That is being collegial, Mayor.
    Senator Bond. You ought to see her when she is giving a 
warning. There is a lot of difference.
    You will not miss it.
STATEMENT OF HON. MARTIN O'MALLEY, MAYOR, CITY OF 
            BALTIMORE
    Mr. O'Malley. Thank you very much, Madam Chair, members of 
the subcommittee.
    The mayors before you, Mayor Griffin from Reno, Mayor 
Savage from Tulsa, Mayor Kirk from Dallas, and I have just come 
from 2 days of really encouraging and, at times, really 
inspiring exchanges with our fellow mayors from all around the 
country at the U.S. Conference of Mayors. It just adjourned 
about an hour or 2 ago, and you will soon be receiving that 
action plan from that conference.
    I can tell you that I have never been so proud as I have in 
these last few days to be able to serve with the men and women 
who are serving as mayors of this great country.
    I thank you for the opportunity to join you today to 
discuss this topic, this topic of how we fight this different 
sort of war, this very unconventional war, a war that is being 
fought on two fronts, one in Afghanistan where our soldiers 
have the best equipment, the best training, and intelligence 
rushed rapidly to the front so that they can do their job, 
accomplish their mission as safely as possible.
    The other front is the home front that we are talking about 
today. And in that fight, we have all been doing our very best 
to step up. We are the first line of defense on the home 
front--our fire departments, our police department. And yet, we 
have some critical needs, needs for equipment, needs for 
technology, and also a need for better intelligence to be 
rushed to our front.
    In Baltimore, we have chosen to make the investment as many 
other mayors have, without so much as a promise if our budgets 
will be reimbursed. We have stepped up to the plate because we 
have to. We are not waiting on Annapolis, and indeed, if 
Baltimore waited on Washington for civil defense advice, we 
would all still be singing God Save the Queen.
    Mr. O'Malley. So, we are moving forward as many cities are 
moving forward.
    And Baltimore, Madam Chair, is a fairly typical city in 
terms of our vulnerabilities. All cities have vulnerabilities. 
We are the economic centers. We are the cultural and gathering 
centers. I would like to think we are somewhat unique in terms 
of our greatness, and I think what we are doing today provides 
a pretty decent illustration of what cities are being asked to 
do in our Nation's defense as we move forward on three fronts: 
intelligence, security, and emergency preparedness.


                        planning and assessment


    We have completed an assessment of all of our 
vulnerabilities in terms of private infrastructure and public 
infrastructure, you know, your major buildings, water systems, 
stadiums, railways, highway bridges, tunnels, and the like. We 
have put together a local intelligence network to act as a 
point of contact with the whole metropolitan area for the FBI 
as we try to forge a new relationship with them so we can share 
part of the workload that is facing us. We have created, in 
very short order at very little expense, a surveillance system 
to provide real-time reporting of common symptoms, flu-like 
symptoms, so that we can watch for spikes in uncommonly high 
numbers of those symptoms. We test our reservoirs now several 
times a day.


                         increased local costs


    In order to make those adjustments, to make our city more 
secure, and in periods of heightened alert, to deploy our 
officers accordingly, we will have to spend money. We 
anticipate spending an additional $8.8 million for police 
officers to secure vulnerable sites for the remainder of this 
fiscal year, which in Baltimore began July 1st. We have already 
spent $2.3 million in unanticipated overtime just since 
September 11. We will spend $4 million to better secure our 
water and waste water systems, securing perimeters and the 
like.
    On the emergency preparedness front, we have coordinated 
with experts. Our fire department has been the beneficiary of 
Federal training. Thank you very much. And we have coordinated 
with experts from the U.S. Army Soldier and Biological Chemical 
Command, as well as experts at the Civilian Biodefense at Johns 
Hopkins University. In order to be prepared, we are going to 
have to spend about $4 million for additional personal 
protective equipment, which will allow our first responders not 
only to respond to a large, single accident, but will equip us 
so that we can safely respond in the event of two simultaneous 
attacks.
    We have also had to spend $400,000 just to upgrade a backup 
emergency operations center, which we hope never to have to 
use.
    On the local homeland security, it carries with it some 
extraordinary costs. We cannot long sustain a war on these two 
fronts if we are only willing to fund one of them. Some of 
these things we have been able to accomplish with relatively no 
money at all. The biosurveillance system is one example. The 
improved cooperation that is now just starting to happen--just 
starting to happen--between the FBI and local law enforcement 
when it comes to the collection, dissemination, and 
investigation of the hundreds of thousands of leads that have 
come to us, is another thing that has not cost a whole lot of 
money.
    But other things do. Every time our Attorney General calls 
on us to go to our highest level of alert in response to a 
generalized threat, it has caused us a massive unfunded, 
unanticipated mandate on every city in America. We calculate 
that prudent steps we have taken since September 11 has already 
cost us about $2.7 million, again largely from police overtime. 
When we go on alert, our police department still has to fight 
crime, and the chemicals that are still killing more people in 
Baltimore today than anthrax or these other agents we talk 
about are the chemicals of heroin and cocaine.
    So, rather than pulling officers away from their duties, we 
call officers back or we ask them to work 12-hour shifts. 
Through the end of the fiscal year, we anticipate spending 
another $11.5 million in expenses directly related to security 
and preparedness for a total of more than $14 million at a time 
when we are taking hits in our tourism industry and our hotel 
revenues and the like.
    This is not a complaint. This is not a complaint. We 
consider it our patriotic duty, our obligation to step up to 
the plate now, and it would be irresponsible to fail to act in 
the face of this current emergency.
    But when we approved our budget, none of us anticipated 
these sort of expenditures in our police budgets or in our fire 
budgets. We never anticipated that our police and fire would 
become local militia on these constant states of alert. We need 
to strengthen our supply lines from Washington because again we 
cannot long sustain a war on two fronts if we are only willing 
to fund one of them. A new Federal response is needed.


               federal programs need better coordination


    Federal support today for local homeland security is a 
patchwork--a patchwork--of programs that will make your eyes go 
crossed. They are largely uncoordinated. They provide no common 
standards for how States and localities should best use these 
funds. Even the programs that have the highest potential 
impact, like FEMA's fire grant programs, meet only a fraction 
of local government needs. FEMA provided just $100 million last 
year, despite nearly $3 billion in applications from fire 
departments.
    Our own dealings with the Maryland Emergency Management 
Agency illustrate why support must be provided directly to 
local governments in our major population centers. MEMA is 
eligible for millions of dollars from the Department of 
Justice's Office of Domestic Preparedness, which could be 
distributed to localities based on risk assessment and 
equipment needs. Yet, they have not released the fiscal year 
1999, the fiscal year 2000, or the fiscal year 2001 funds. We 
are now 4 months into fiscal year 2002, and I am told that 
Maryland is not the only State where bureaucracy is a barrier 
to timely emergency preparedness. Local governments need stable 
and timely funding for this effort.
    We also need one place where we can go for the assistance 
in gearing up quickly to defend our citizens. This balkanized 
collection of programs, I would suggest to you, could and 
should be replaced with the equivalent of a community 
development block grant program for homeland security. Such an 
initiative, what one might call homeland defense block grants, 
should be based on formula, commensurate with security needs, 
and a threat assessment of how vulnerable an area is.
    Then they should have accountability strings attached to 
them. They should be targeted to emergency personnel, 
equipment, training, and security related capital expenses. 
Their receipts should also be conditioned on the requirement 
that cities do not cut local investments to backfill with 
Federal dollars as we saw happen with the tremendous windfall 
that States experienced by supplanting the welfare reform 
dollars.
    Just like the CDBG program, homeland defense block grants 
should be provided directly to cities and urban counties which 
are the primary targets on the home front of our war against 
terrorism.
    One final point that cannot be ignored is the fact that in 
many cities, some of the most sensitive targets are privately 
owned. In Baltimore, we essentially have been called upon in 
this interim period as we adjust, to provide private security 
for exposed rail yards, industrial and chemical plants, 
utilities, and other large facilities at great expense to local 
taxpayers. And this cannot continue without eventually 
bankrupting and harming our cities. Only the Federal Government 
has the ability to require companies with operations in many 
States to change their operations to reflect the new dangers of 
this world in which we live.
    In conclusion, under your leadership, Madam Chair, this 
subcommittee changed the way our Nation provides housing for 
our poorest citizens, getting rid of those disgraceful human 
filing cabinets that our public housing had become and 
replacing them with new opportunity through HOPE VI. Under your 
leadership and the members of this committee, you changed the 
way our Nation responds to natural disasters, reforming FEMA 
into an agency that has become a model of effectiveness and 
compassion after these sorts of events happen.
    Now we are asking this subcommittee to, once again, change 
how our Nation prepares to defend itself in this war, a war 
fought on one front in our cities, on our doorsteps, and the 
very halls of this great institution. You too are fighting on 
the home front, and my prayers are with you and the men and 
women, your colleagues, who have been touched by these threats.
    America is going to emerge from this stronger than ever 
before. I have no doubt of that. The fabric of federalism will, 
no doubt, be stretched to its limits, but fear cannot conquer 
freedom.


                           prepared statement


    And we want to thank you for your leadership. We want to 
ask you for your assistance, and we pledge to you that we will 
do everything in our power to protect the citizens of this 
country who happen to live in our population centers.
    [The statement follows:]

               Prepared Statement of Hon. Martin O'Malley

    Madam Chair. Members of the Subcommittee. Thank you for the 
opportunity to join you today to discuss a topic critical to our 
nation's cities and to our nation: How do we best protect our people in 
the wake of the tragic events of September 11th?
    In times of crisis--when there are dramatic shifts in our nation's 
priorities--the Members of this Committee are called upon to wisely 
invest our nation's resources. This is such a time. And America faces a 
different kind of crisis. We need your leadership.
                 the new paradigm for homeland security
    Today, we are fighting a different kind of war--on two fronts. One 
front is in Afghanistan, where we have the best technology, the best 
equipment, the best intelligence being sent right to the front, and no 
expense is spared.
    But for the first time in nearly 200 years, the second front is 
right here at home. And to date, it's where we've seen the greatest 
loss of life. Yet, we have insufficient equipment, too little training, 
and a lack of intelligence sharing with federal authorities--although, 
on this last point, we're working with FBI Director Mueller to make it 
better. And currently, we have very little in the way of national 
funding targeted for homeland defense where it is truly needed--at the 
local government level.
    Local government must be the first line of defense on the home 
front. It can't be a federal or state function. There are no federal or 
state Fire Departments or medics. There are about 11,000 FBI agents 
compared to 650,000 local police officers. And as we saw in New York, 
there is no time to bring people and equipment in from somewhere else 
when terror strikes. For those critical first hours--when there is the 
greatest opportunity to save lives--local governments are largely on 
their own.
    Baltimore has first hand experience in this regard--although given 
what New York and the Washington area are dealing with, it seems like 
we got off easy. When a CSX train derailed and caught fire in a tunnel 
beneath Baltimore this past summer, local emergency responders rushed 
to the scene. But the State didn't show up for a few hours. And the 
NTSB--although only 40 miles away--didn't arrive until the next 
morning. Our firefighters, police and health officials relied on their 
own training and resources.
    Today, in the new world in which we live, every mayor has a choice 
to make: your city can be prepared or not; it can be a hard target or 
it can be a soft target; you can make a huge unanticipated investment 
now to keep your people safe, or you can cross your fingers, wait for 
help from a higher level of government, and hope for the best.
    In Baltimore, we have chosen to make the investment. We are taking 
responsibility for doing as much as we can. We are not waiting for 
Annapolis. We are not waiting for Washington. That is the American 
way--neighbors take care of each other. If our city had waited for 
advice on self-defense from Washington in the war of 1812, all of us 
would be singing ``God Save the Queen.''
             baltimore's interim homeland security response
    I am told Baltimore is a fairly typical city--of course, if that's 
true, I think it's the greatest typical city in America. I think what 
we are doing today provides a good illustration of what cities are 
being asked to do in our nation's defense. We are moving forward on 
three fronts:
    First, on the Intelligence front, because it's better to catch 
terrorists--or lone nuts--before they commit horrible acts, than it is 
to react in the aftermath. We have:
  --Hired Richard Hunt, retired Chief of Criminal Intelligence for the 
        FBI.
  --Developed a statewide security intelligence network, working with 
        other law enforcement agencies
  --Engaged in a ongoing dialogue with the FBI and Department of 
        Justice.
  --Met daily with Federal authorities to obtain intelligence.
  --Created a web-based surveillance system to provide real time 
        reporting from hospitals, ambulances, animal control, school 
        attendance and over-the-counter medicine to track common 
        symptoms in uncommon amounts--as well as hospital bed 
        availability.
  --Tested reservoirs and the water system several times daily.
    Second, on the Security front, we have:
  --Secured and protected City's vulnerabilities, such as major 
        buildings, water system, stadiums, major rail and interstate 
        highway bridges and tunnels.
  --Called daily security briefings with Police, Health, Fire, Public 
        Works, Transportation and IT Departments and State officials 
        almost every day.
  --Bolstered police and security presence at City buildings.
  --Arrested and charged people who make bomb threats.
    Third, on the Emergency Preparedness front:
  --Hired a civil preparedness expert, former NYPD Chief Louis Anemone 
        to develop our emergency preparedness blueprint.
  --Reviewed the findings of the Hart-Rudman Commission and its 
        applicability to Baltimore--and consulted with Senator Hart.
  --Coordinated with experts like the U.S. Army Soldier and Biological 
        Chemical Command (SBCCOM) in Aberdeen at Aberdeen and the 
        Center for Civilian Biodefense at Johns Hopkins University.
  --Worked with hospital CEO's on preparedness and data collection.
  --Met with local news directors to discuss City's ongoing 
        preparedness and dissemination of information in the event of 
        an emergency.
              local homeland security: extraordinary costs
    While some things can be done relatively cheaply--the 
biosurveillance system is one example--other measures require huge 
capital and personnel outlays. For example, every time the Attorney 
General calls on us to go to our highest level of alert, in response to 
a generalized threat, it is a massive unfunded mandate on every city in 
America.
    Just to secure our Water and Wastewater system--Baltimore provides 
water for our entire region--we will need to spend $28 million in the 
next year:
  --$24 million to convert our water treatment facilities from 
        chlorine--a dangerous and highly regulated chemical--to safer 
        and far less volatile bleach;
  --$2.4 million for security improvements like cameras, barricades and 
        fences; and
  --$1.6 million to place security personnel at sites that previously 
        were unsecured.
    And we calculate that taking the prudent steps we've taken since 
September 11th already has cost the city nearly $2.7 million--largely 
from police expenses during heightened states of alert immediately 
following September 11th and subsequent alerts issued by the federal 
government, including the beginning of the campaign in Afghanistan on 
October 7th.
    When we go on alert, our Police Department still has to fight 
crime. The chemical attack that has taken the most lives in Baltimore 
still is heroin and cocaine. So rather than pulling officers away from 
their duties, we call other officers back, or they work 12-hour shifts. 
Either way, our overtime goes up. I expect virtually every other city 
does the same.
    We get hundreds of calls every week reporting threats like 
suspicious envelopes, packages and powder. And while these drain 
resources, the real impact is when we have credible threats and must 
raise our state of readiness. In these cases--which we anticipate will 
happen periodically in most large cities, and already have happened in 
Baltimore--our Police Department is providing national wartime defense 
with city resources.
    Through the end of the fiscal year, we anticipate spending another 
$11.5 million in expenses directly related to security and 
preparedness, for a total of more than $14 million--$9.1 million in 
personnel costs and $5 million in capital and equipment expenses.
    I'm not complaining. We consider it our patriotic duty to step up 
to the plate, and it would be irresponsible not to take action. But 
when we approved our budget for this fiscal year, we did not anticipate 
that our police, fire and emergency responders would double as local 
militia in a war on terrorism. We need to strengthen our supply lines 
from Washington.
    In addition to the $12 million I've mentioned, we also have a $3.5 
million request pending with the Maryland Emergency Management Agency 
for personal protective equipment. Our first responders--fire, police 
and medics--need adequate equipment to enable them to safely do their 
jobs: gloves, masks, protective suits and communications equipment. 
Right now, we are not fully ready.
                    a new federal response is needed
    September 11th changed the rules of engagement on terror forever--
at least for the rest of our lives. No longer are military combatants 
or U.S. civilians in foreign lands with high profile national security 
functions the sole targets. Now, everyday Americans going about their 
daily routines are at risk.
    Fighting terrorism and safeguarding our citizens from terrorism 
always has been a national challenge. But now the paradigm has 
changed--our homeland is vulnerable. And those of us here today from 
local government are asking for the Congress and the Administration to 
devote the necessary Federal resources to do all that we know can and 
must be done.
    Without a dramatic shift in how we finance a portion of our 
homeland security, protecting our homeland will become an unfunded 
mandate on local governments. And, eventually, with competing 
priorities, it truly may become unfunded. Our nation will be unprepared 
and our citizens more at risk.
    Federal support today for local homeland security is a patchwork of 
programs. They are largely uncoordinated and provide no common 
standards for how states and localities should best use these funds. 
Twenty federal agencies provide anti-terrorist training through 120 
different courses--but there are no common requirements, there is no 
integrated strategy to make sure that the proper people get trained or 
that they get trained to the proper level of readiness.
    Even the programs that have the highest potential impact--like 
FEMA's FIRE Grant programs--meet only a fraction of local government 
needs. FEMA provided just $100 million last year, despite an 
application list of nearly $3 billion from fire departments all over 
the country. And the pre-September 11 view at OMB targeted this program 
for elimination because it was not seen as a ``federal 
responsibility.''
    In addition, the current federal tool to operationalize anti-
terrorism response outside of the Federal Government is the Federal 
Response Plan. Its goal is to guarantee continuity of government and 
services in the event of a national emergency. It envisions non-federal 
emergency response as a function driven by state government--like the 
National Guard. It is an appropriate model for handling natural 
disasters like hurricanes or earthquakes. But in the wake of September 
11, it is ill suited for anti-terrorism, because most law enforcement 
and emergency response functions are local in nature.
    Our dealings with the Maryland Emergency Management Agency (MEMA) 
illustrate why support must be provided directly to local governments. 
MEMA is eligible for millions of dollars from the Department of 
Justice's Office of Domestic Preparedness, which could be distributed 
to localities--based on risk assessments and equipment needs. Yet they 
have not released or applied for the fiscal year 1999, fiscal year 2000 
and fiscal year 2001 funds. We are now four months into fiscal year 
2002. I am told that Maryland isn't the only state where bureaucracy is 
a hurdle to emergency preparedness.
    Nor have we had much better luck with the State's Office of Crime 
Control and Prevention, where we were turned down earlier this year for 
a $187,000 anti-terrorism law enforcement equipment grant.
    Local governments need stable funding for this effort. We also need 
a one-stop shop for local governments to turn for assistance in gearing 
up for this war. On September 12th, I called everyone I could think of 
to find out what we should be doing to protect our city. No one could 
provide me with a simple checklist, much less offer direction 
concerning funding or training.
    A recent General Accounting Office report detailed the extent of 
this problem--compiling a list more than 100 pages long of programs 
that support emergency preparedness. At a minimum, the inventory of 
these programs must be consolidated into a more user-friendly form, 
with one agency responsible for coordination and budget formulation--
perhaps the new Office of Homeland Security.
                      homeland defense block grant
    However, what is really needed is for this balkanized collection of 
programs to be completely overhauled and largely replaced. In its 
place, we need the equivalent of a Community Development Block Grant 
program for homeland security. Such an initiative--what I would call a 
Homeland Defense Block Grant--should be distributed based on a formula 
commensurate with security needs and a threat assessment of how 
vulnerable an area is.
    These funds should have some strings attached--they should be 
specifically targeted to emergency personnel, equipment, training and 
security-related capital expenses--to ensure the accountability that 
the Congress must demand in times of emergency. Their receipt should 
also be conditioned on the requirement that the receiving municipality 
or subdivision does not cut local investment in relevant law 
enforcement, emergency first response or public health agencies to 
backfill with federal dollars. There must be no shell game in local 
budgeting like we have seen at the state level with federal welfare 
reform dollars.
    Just like the CDBG program, Homeland Defense Block Grants should be 
provided directly to cities and urban counties, which are the primary 
targets on the home front of our war against terrorism. It will allow 
us to protect the greatest number of Americans as quickly as possible. 
And it will ensure that no American is placed at risk because they have 
the misfortune of living in city that is having a bad budget year.
    In addition to ensuring a consistent level of security in every 
American city, Homeland Defense Block Grants would allow national 
experts to provide guidance to local officials. I would leave it to 
people more knowledgeable than me--like the specialists at SBCCOM and 
FEMA--to determine what additional technical support and spending 
restrictions should be placed on this kind of funding stream.
    Alternatively, the same end could be achieved by increasing the 
funds appropriated for Local Law Enforcement Block Grants, and 
dedicating that increase specifically for this purpose--following the 
general guidelines I've already outlined.
                     the role of the private sector
    One final point that cannot be ignored is the fact that in many 
cities, some of the most sensitive targets are privately owned. In 
Baltimore, we are providing private security for railyards, chemical 
plants, utilities and other large facilities--at great expense to local 
taxpayers. This cannot continue without bankrupting our cities. But it 
would be irresponsible to do otherwise.
    All of our private sector partners are cooperating in some manner. 
But when it comes to, for example, providing adequate security for rail 
cars that contain chemicals including chlorine and hydrochloric acid, 
companies like CSX plead poverty--and city governments are left holding 
the bag.
    I realize that they cannot fence 20,000 miles of track. But a 
relatively small fraction runs through the 20 largest cities. And those 
segments must be safeguarded to protect millions of lives. Only the 
federal government has the ability to require companies with operations 
in many states to change their operations to reflect the world in which 
we now live.
                               conclusion
    The United States of America changed forever on September 11th. And 
as you and your predecessors have been called to do in the past, it is 
your responsibility to sift through competing interests and past 
practices to determine what is best for our country.
    Under your leadership Madam Chair, this Subcommittee changed the 
way our nation provides housing for our poorest citizens--getting rid 
of the disgraceful human filing cabinets that our public housing had 
become and replacing them with new opportunity through HOPE VI.
    Under your leadership Madam Chair, this Subcommittee changed the 
way our nation responds to natural disasters--reforming FEMA into an 
agency that is a model of effectiveness and compassion.
    Now, we are asking this Subcommittee to, once again, change how our 
nation prepares to go to war--when that war is being fought in our 
cities--on our doorsteps--in the very halls of this hallowed 
institution. I am honored to be here today, because I know you will do 
what is right.
    You, too, are fighting on the home front. And my prayers are with 
the men and women, here--your colleagues--who have been touched by 
terrorism. I have faith you will ensure that we have the training, the 
equipment, and the resources to protect Americans.
    America will emerge from this trial stronger than ever before. We 
will be tested. We will face terror. But we will not be terrorized. As 
our President has said, fear cannot conquer freedom. Thank you for your 
leadership in proving this statement true.

    Senator Mikulski. Thank you very much, Mayor, for those 
excellent ideas. We are going to come back, I know, for a 
robust conversation.
    I would next like to turn to Senator--Mayor Jeff Griffin 
from Reno.
    Senator Bond. Do not get his mouth watering. He may start 
running for office now.
    Senator Mikulski. I know. I will not get into it with 
Senators Reid and Ensign.
    I know that you have been a leader in economic development, 
worrying about housing, that you also chair the Criminal and 
Social Justice Committee for the Conference of Mayors. I think 
Senator Reid really gave us a nice snapshot of the wonderful 
job you have been doing in Reno. So, why do you not just 
proceed, Mayor.
STATEMENT OF HON. JEFF GRIFFIN, MAYOR, CITY OF RENO, 
            NEVADA
    Mr. Griffin. Thank you, Senator. I appreciate it very much 
and I appreciate the opportunity to be here with my fellow 
mayors.
    In addition to my chairmanship of one of the committees of 
the conference, I also chaired, along with Mayor O'Malley and 
Mayor Scott King of Gary, Indiana, one of our task forces that 
has met here in the last day and a half on the issues and 
challenges facing us. And over the last several days here in 
Washington, we did have an emergency, security, and safety 
summit with the Conference of Mayors. We think that we have the 
beginnings of a blueprint that outlines the needs of 
communities and cities as we face this new terrorist threat.
    If I can just make a couple of observations, very briefly, 
about some of, I believe, important points that would be of 
interest to this subcommittee in our findings at the 
conference.
    One is that we are calling for the elevation of the Office 
of Homeland Security to a cabinet level position. It is the 
desire, I believe, of the task force that the director be given 
budgetary authority in some fashion eventually over all the 
Federal personnel and programs related to domestic protection, 
law enforcement.
    Also, we are asking for a permanent commission that would 
include police chiefs, fire chiefs, local emergency managers, 
public health officials, and most importantly we think, mayors; 
that it be established immediately to provide the director of 
Homeland Security advice on the restructuring of this Federal-
local partnership, with the long-term goal of strengthening the 
domestic safety and security of our country.
    Additionally, while we as mayors have been working for some 
time on potential responses to terrorist attacks, the incidents 
and attacks of September 11 and subsequent events really have 
presented mayors with different and difficult problems.

               LOCAL GOVERNMENTS, ACCESS TO FEMA PROGRAMS

    If I may echo some of the comments that Mayor O'Malley made 
about the role of FEMA. We believe that there is a role for 
FEMA, and it should be expanded to really embrace event 
preparedness. Also, the successful Project Impact program we 
believe has been helpful in assisting local governments to 
prepare and mitigate disasters. We think it would be a good 
model to use so that every community--every community--in this 
country has an opportunity to take advantage of coordinated 
disaster response-related technical assistance, as well as 
financial assistance from the Federal Government.
    If I can make an observation about the FEMA fire grants, 
however. One of the things that Senator Reid, I am sure, over 
the years has mentioned to you is Nevada has a lot of wide-open 
spaces. But interestingly enough, the State of Nevada is the 
most urban State in America. The largest percentage of our 
population lives in either Las Vegas or in Reno. I was looking 
yesterday at the FEMA fire grants. We have many, many, many 
small communities and many, many Indian reservations. We 
received approximately six FEMA fire grants in the program that 
was authorized in December. The largest city that received one 
in the State of Nevada had a population of 7,000 and the other 
four, in fact, had populations under 1,000. I would suggest 
that in the event that you reauthorize and reappropriate, that 
you might take a look at how that would work, particularly in a 
State like Nevada with basically two large metropolitan areas.
    Our recent dealings also with the Federal Government on 
disaster response--and I have a personal case in my city--has 
really been mixed. I think the number one problem has been 
communication gaps.
    About 3 weeks ago, we have a Microsoft office in Reno, and 
there was an incident where an envelope was noticed in their 
mail room as being suspicious. They contacted, for some reason, 
the State public health department, who in turn contacted the 
FBI. The FBI came from their offices, picked up the envelope, 
and brought it back to the State. They didn't tell anyone, 
including the employees of Microsoft. And 2 days later, as one 
can imagine, a rumor began to circulate within the Microsoft 
office that there had been a suspicious envelope, and we 
received a presumptively positive scientific test that it was 
anthrax.
    I found out about it, along with my police chief and fire 
chief, from the media. Approximately 20 minutes later, we were 
notified from the Governor's office of the existence of a 
possible anthrax incident. We immediately, of course, got on 
with the FBI. Within 45 minutes they were in our offices, and 
the relationship has worked very well in coordinating the 
response.
    But I was very dismayed that for 48 hours no one in local 
government knew of the existence of this. I think it has been 
an example that I have used in the last few days with my fellow 
mayors, and particularly in my interest and role in chairing 
the local and Federal cooperation task force. We really have to 
work through this in a terribly quick way to ensure that that 
does not happen again.
    I think also, if I may make another comment, it is 
important that the Federal Government provide the communities--
I think Mayor O'Malley has been very eloquent in talking about 
the impact that the events and tragedies have put upon local 
government, as well as the Federal Government. We all have the 
obligation, however, to bring in balanced budgets. We do not 
have any wiggle room when we have a situation, such as 
September 11. I think the proposals from the Bush 
administration, as well as from Senator Byrd, to provide 
additional funds for programs like the FEMA fire grant to 
provide local governments with equipment and training is an 
excellent start.
    If I may--and Senator Reid is gone, but just to reiterate 
some commentary I made to the assemblage earlier today, this 
morning, it is my belief that the Senate did the right thing in 
voting 100 to nothing on the economic stimulus package. My own 
personal view is that we are not going to be able to address 
the economic impact of what we face today merely with tax cuts. 
We have to have a balanced approach. I look to the Senate to 
provide leadership on that. I look to President Bush to do 
that. I think we need a balanced approach with infrastructure 
improvements at some level, as well as some tax relief, but 
very clearly we need to get the economy going.
    I do not know intimately this bill, but H.R. 3161 that has 
been introduced in the House would provide about $1 billion for 
local governments for the development of emergency response 
plans. And not just response. I think all of us have planned to 
a fare thee well on emergency response. I think what we are all 
mostly concerned with today is being prepared, making sure we 
have the communication back and forth with the Federal 
Government. Mayor O'Malley used a number several times in the 
last 2 days. There are 12,000 FBI agents in this country and 
there are 650,000 men and women in uniform on the streets of 
America's cities as police officers. We represent a tremendous 
resource. We are very concerned that the communication, 
particularly as it relates to intelligence information, goes up 
but does not come back down.

                           PREPARED STATEMENT

    Let me again echo what I am sure you are going to hear here 
also, Madam Chair. America's mayors stand behind you, the 
Congress, in any capacity we can serve to help in any way we 
can. We do see the threat. We respond to it on a daily basis 
right on the streets of America's cities, and we stand arm in 
arm with you to address the challenges and win this war on 
terrorism.
    [The statement follows:]

                Prepared Statement of Hon. Jeff Griffin

    Senator Mikulski and members of the subcommittee, thank you for the 
opportunity to appear before you to discuss this very important topic. 
While it is certain that the terrorist attacks of September 11 have 
caused every community in the nation to examine their emergency 
preparedness and response systems, I would mention that the U.S. 
Conference of Mayors has been examining potential responses to 
disasters of unnatural origins for several years now. I also want to 
stress that Mayors across the country are doing their part to ensure 
that all the local, state, and federal organizations in our communities 
will work together in the case of a terrorist attack of any kind.
    In my capacity as Chairman of the U.S. Conference of Mayors 
Standing Committee on Criminal and Social Justice, I have been working 
over the past few years with federal officials on a variety of topics 
related to terrorism and the use of weapons of mass destruction. For 
instance, in cooperation with the Department of Justice and Texas A&M 
University, the Conference of Mayors has developed a mayoral training 
institute on weapons of mass destruction (WMD) that is designated to 
prepare Mayors for the roles and responsibilities they must assume 
during a WMD event.
    Earlier this year, I hosted a regional conference for Mayors in 
Reno where we discussed how cities can prepare for terrorist attacks 
involving weapons of mass destruction. Our speakers helped us 
understand how mayors can best assume their natural role as crisis 
coordinator and informed spokesperson in the case of an event. I would 
venture to guess if we held a similar conference today, the 
participation would be much greater. It is constantly on our minds as 
we try to go about our daily business. Every Mayor has watched Rudolph 
Guiliani since September 11 and my view is that his conduct and 
handling could serve as a primer for America's Mayors.
    Just this week back home in northern Nevada, Sparks, Nevada Mayor 
Tony Armstrong and I hosted an Emergency Preparedness Summit to promote 
preparedness, reassure the public and create a community-wide dialogue 
on what we have faced as a nation and locally.
    Our summit was well attended by area representatives of the 
federal, state, and local governments, public safety, health care, 
transportation, and utility sectors. Our 18 member panel shared 
information and discussed in detail area plans to coordinate our 
preparedness and responses to incidents.
    We learned at the summit that emergency management systems are in 
place and more coordinated as a result of a region-wide flood we 
suffered in Reno in 1997 and the elaborate plans developed in 
anticipation of threats during the Millennium celebration. During that 
time, we prepared for disasters on all fronts, such as terrorism, 
HAZMAT spills, not just threats to our computer systems.
    The three jurisdictions of Reno, Washoe County, and the City of 
Sparks have thoroughly reviewed and shared plans to eliminate 
redundancy in our systems and establish protocols for responding to an 
event. We have established, and continue to maintain, a Local Emergency 
Preparedness Committee that includes every key official and agency--
such as hospitals and utilities--with public safety personnel taking 
the lead.
    As you are well aware from the heroic efforts of police and fire 
departments in New York City and Arlington, Virginia, local governments 
are the ``first responders'' to disasters of all kinds. With the new 
threat of terrorism, we will remain that first point of contact, which 
makes preparing for and dealing with such disasters a very different 
and difficult problem.
    Unlike a ``traditional'' disaster, such as an earthquake, no 
warning will occur prior to an attack by a terrorist using weapons of 
mass destruction. In most natural disasters, we are usually able to 
differentiate between when an event has begun and when it has ended. 
Therefore, we know when we can move from the event preparedness and 
event management stages to the event consequence stage. In a terrorist 
or WMD event, we almost assuredly will be dealing with event management 
and event consequence at the same time, in that people will be dying 
while others are just becoming infected or impacted by the event.
    We know that once a WMD event hits one of our cities, we will need 
massive amounts of help. In the past in instances of natural disasters 
such as floods, hurricanes, fire and, so on, state and local resources 
were often sufficient to handle event management in larger cities and 
communities. As it is currently structured, federal assistance comes 
primarily from FEMA for the event consequence stage--this approach is 
completely inadequate to respond to today's threats.
    Many experts agree that a local public health system will be 
quickly overrun by even a modest WMD event in a city of almost any 
size. As a citizen, I may not know how to tell if I have been exposed 
to a biological or chemical weapon. Hospitals and doctors offices will 
be overrun with not only the sick, but those who fear contamination. I 
see a great need for a coordinated training effort for these private 
sector personnel. Doctors, nurses, and public health officials must be 
trained to spot a possible attack, to identify the nature of the 
attack, and to know what public health steps are necessary. Our public 
safety first responders must be adequately trained to identify 
potential attacks and take the appropriate actions. Our public must be 
informed and educated, to help avoid panic and over-reaction.
    As a result, I believe that there is a great need for event 
preparedness, for which FEMA can and should play a role. The successful 
Project Impact program has been very helpful in assisting localities to 
prepare for and mitigate disasters and this model should be expanded so 
that every community in the country has an opportunity to take 
advantage of coordinated disaster response-related technical and 
financial assistance from the federal government.
    New Years Day 1997, when Reno and the rest of a 5-county area 
experienced a major flood, FEMA assistance was needed. At the time, it 
became evident that communication with FEMA was less than adequate. We 
experienced frustration dealing with layers of ``red tape'' while 
attempting to secure reimbursement for funds the City expended during 
the recovery effort; however, as a result of these difficulties, a 
number of procedures at FEMA were improved and streamlined, and the 
results have been encouraging. We commend FEMA for their efforts over 
the last several years to improve its customer service and we look 
forward to a continued relationship with the agency as we enter this 
new age of previously unthinkable disasters.
    As a result of its work with response to natural disasters, FEMA 
has developed relationships with local governments. The question is: 
are they in the best position to coordinate response activities amongst 
federal agencies and state and local governments? They can be, but only 
if they are given the authority and resources necessary for such an 
important and large task. Mayors are hopeful that FEMA will have a 
strong role with the new Office of National Preparedness as it attempts 
to corral the many federal agencies that deal with disaster response 
and provide improved services to communities in need.
    It is also our understanding that FEMA has been tasked with 
establishing a Joint Information Center by Governor Tom Ridge of the 
Office of Homeland Security. Under this plan, FEMA would be the source 
of all federal government information dissemination to the public and 
press. I would urge Governor Ridge to include Mayors in the process of 
developing the JIC for obvious reasons.
    Mayors have engaged with our regions and states, and with the 
federal government, in an effort to train for response to natural 
disasters. Most cities have detailed plans for dealing with floods, 
tornadoes, fires, hurricanes, earthquakes and other natural disasters. 
We have worked out regional and often state cooperation strategies, and 
in most cases are prepared--at least as best as we can hope to be--for 
these terribly destructive events. It is our hope that the JIC can 
assist us in working out these strategies to respond to the new threats 
that we face.
    I have said many times that in the event of a disaster, natural or 
otherwise, the media will seek out Mayors and pose two questions: 
``What is going on?'' and ``What are you doing about it?'' It has 
become clear to me that mayors have a responsibility to possess the 
basic information needed to manage all of their resources in the event 
of a terrorist attack of some kind, and most importantly, know what to 
say, and what not to say, when the cameras reach our doors. We must be 
trained to provide calm, informed answers and work to warn as well as 
reassure our citizens.
    Finally, as all of you already know, the costs of improving local 
response capabilities is daunting to many communities across the 
country, and while our citizens will demand and deserve these 
safeguards, sufficient resources do not exist. We were very pleased to 
see that President Bush has requested $600 million for FEMA to provide 
state and local governments with equipment and training grants to 
improve response capabilities and support the Office of National 
Preparedness.
    In addition, the Senate has suggested a significant increase for 
the FIRE grants at FEMA that would give neediest fire departments 
across the country the necessary tools to protect our citizens and 
respond to terrorist events. I also believe that we need more 
discretion at the local government level and fewer federal mandates to 
allow us the flexibility to apply the resources and funding to the 
need. One size does not fit all, and with all due respect, we are there 
day after day, listening to the public and our public safety officials. 
Give us the discretion to make decisions within federal guidelines
    For example, in the past two years, the Reno area has been plagued 
by two major wildfires which came very close to causing extensive 
property damage. Habitat destruction and environmental degradation to 
our primary water source has been extensive. Our fires tested us and 
the system because they were multi-jurisdictional, crossed state lines 
and required federal type-one teams in support of local fire 
suppression resources. In order to battle these events, Reno relies on 
a fire department that serves both rural and urban areas, and as a 
result, utilizes a large number of volunteers. Also, Reno needs new 
equipment to replace outdated rolling stock for our volunteer fire 
departments, and equipment like night vision goggles or thermal imaging 
units. This may not be the case in other communities around the 
country, as each has its own needs and priorities.
    On Tuesday of this week, Rep. John Larson (D-CT) also recognized 
the need for additional resources to local governments in our battles 
against terrorism when he introduced the Municipal Preparation and 
Strategic Response Act of 2001 (HR 3161). The measure would authorize 
$1 billion for local governments and regional authorities to develop 
comprehensive local emergency response plans. The bill would also 
provide an additional $250 million each to the COPS program at the 
Department of Justice and Firefighter Assistance Grant Program at FEMA 
to establish grants specifically for counter-terrorism response, 
training, and equipment. In order to make funding available to any 
community in need, there would be no local match required for these 
special grants.
    The bill would ask FEMA to designate a representative in each state 
that would assist communities on the development of response plans, 
coordinate the sharing of information on federal resources, and act as 
a liaison between units of local government.
    While the actual text of HR 3161 was not in print as I prepared 
this testimony, I believe that Rep. Larson is headed in the right 
direction. Federal assistance for local disaster response coordination 
activities is crucial to the swift development of local government 
preparation activities during these very tense times. And as Rep. 
Larson points out, the U.S. Constitution empowers Congress to provide 
for the common defense and general welfare of the United States. At no 
time in our recent memory has such assistance been necessary, and I 
hope that the Senate will consider companion legislation to HR 3161.
    Thank you again for the opportunity to testify before this 
committee, and I hope to continue to work with Congress to ensure that 
communities across the country are properly prepared and equipped to 
deal with any future terrorist actions.

    Senator Mikulski. Well, Mayor Griffin, I know that you need 
to go, and I know Senator Bond has a very pressing schedule.
    Mayor Savage, Mayor Kirk, if you could wait. Senator Bond, 
do you have any questions?
    Senator Bond. I would rather hear the comments of Mayor 
Savage and Mayor Kirk. I have got pressing business, but this 
is more pressing.

                           PUBLIC INFORMATION

    Senator Mikulski. Mayor Griffin, before you go, what you 
just told me about the Microsoft situation is really enormously 
disturbing. Here is my question. This then goes to public 
information and then we will come to this later.
    We know that you need resources. You are coming up with 
innovative ideas on the most efficient way that they come to 
you rather than trickle down through bureaucracies, direct 
resources to you.
    Tell me about what you think you need in the way of public 
information. There is information to the leadership and then 
there is information to the general public. Do you have any 
thoughts or recommendations? Because I am working on 
bioterrorism legislation with Senators Frist and Kennedy and I 
am putting in a public information component. I would really 
welcome your ideas.
    Mr. Griffin. Thank you, Senator. It is very appropriate. In 
my role as chair of the standing Committee on Public Safety and 
Crime, I have also for the last 2\1/2\ years been working on 
domestic terrorism and weapons of mass destruction. And as a 
former council member, you understand very intimately that 
there are going to be 2 questions that are going to be posed to 
the mayors of America in the event of something like this. 
Mayor Giuliani I think gave us a primer on what those are. 
There are going to be 2 questions. One is what is going on. The 
second one is what are you doing about it.
    Senator Mikulski. Third, what does this mean to me? Do I 
have to rush to my school to get my child?
    Mr. Griffin. Absolutely. I think to the extent that you can 
assist in this, what we really need is a true working 
relationship with all elements of the Federal Government. 
Certainly we practice on a regular basis with our fire 
departments and police departments and public health people and 
the local hospitals. We do disaster preparedness. I would like 
to see something like that so that there is a true exchange of 
information and intelligence.
    I think there were several comments--and Mayor O'Malley may 
want to speak to this. At our task force meeting yesterday, 
there were several comments made by police chiefs, for example, 
and it depends on your locale and your relationship with the 
SAC, the special agent in charge, how much information you get 
back and forth. It goes up, but it does not seem to come down 
very well.
    We think we can provide a tremendous resource with those 
650,000 people to run down--there is now something approaching 
500,000 leads that the FBI has been given. They have got a work 
force of 12,000 people. We think we can help. I think if we are 
going to reassure the public and tell them what is going on and 
what does it mean to them, we have to have complete access to 
the information and we have to know about it in a very timely 
fashion.
    Senator Mikulski. And if you have to leave, it will not 
hurt our feelings if you just get up and go. We often get up 
and go on witnesses.
    Mayor Savage, we really want to welcome you here today, the 
Mayor of Tulsa. We know you have done an outstanding job in 
terms of your city and your desire to really move that city 
into the future. We really want to hear your testimony. Though 
it was Oklahoma City that was hit by the terrible act of 
domestic terrorism, we know that all of Oklahoma and all of 
America grieved. I am sure that there are lessons learned from 
even being a brother or sister mayor in a State that is hit, 
particularly in the area of mutual cooperation, mutual aid, the 
coordination of your Governor, Frank Keating. We knew Keating 
when he was at HUD. So, why do you not just go right ahead.
STATEMENT OF HON. SUSAN SAVAGE, MAYOR, CITY OF TULSA, 
            OKLAHOMA
    Ms. Savage. Thank you, Madam Chair. I am delighted to be 
here.
    And, Mr. Bond, I would comment that I have a junior in 
college in central Missouri and she loves your State very, very 
much.
    Senator Bond. We are delighted. We just hope that your 
football team shows some mercy. They did not treat our friends 
from Texas too well.
    Ms. Savage. It is a burden we bear, Senator.
    But we are happy that you have acknowledged the prowess of 
the Oklahoma Sooners.
    As the Mayor of Tulsa, which is a city of 385,000 people, a 
little bit of history. We were founded as part of Indian 
territory and sit on the banks of the Arkansas River really in 
northeastern Oklahoma. It is quite a diversified city being 
built upon the energy industry, now heavily diversified into 
aerospace and technology and energy manufacturing.

                         DISASTER PREPAREDNESS

    We are no stranger to disaster. Most of our disasters 
historically have been caused by Mother Nature. We live less 
than 2 hours away from Oklahoma City and what was once the 
Murrah Federal Building, Madam Chair, as you have expressed. We 
also live in the heart of Tornado Alley. There was a time in 
the 1970's and the 1980's when Tulsa led the Nation in 
federally declared flood disasters. So, for us disaster 
preparedness has become a way of life and it has forced us, in 
my estimation, to learn to work smarter with the resources we 
have and to become, in effect, real scrappers at trying to 
develop strong working relationships at both the State and the 
Federal level.
    When FEMA began in 1992 the community ranking system to 
rank communities for flood readiness, we have ranked at the top 
of their charts for a comprehensive flood plain management 
program and not sustained a federally declared flood disaster 
in 15 years.
    We have also led the Nation as the first major city to win 
preparedness accreditation in the National Weather Service 
program called Storm Ready, and in 1998 we were identified by 
FEMA as a flagship Project Impact community and received a 
number of awards for, once again, preparedness and mitigation 
in many areas of hazard.
    Now, I mention that by way of introducing a model of what 
has worked for us. We have used the incident command system, a 
lot of coordination, and we have been very pleased to date with 
our preparedness. But as it has been stated by my colleagues, 
our difficulty becomes in sustaining that level of preparedness 
and readiness while trying to do the regular jobs that people 
do have.
    In relating this to the Nation's war and our 
responsibility, our collective responsibility, for national 
security, the components that become very important in that 
discussion are communication, coordination, planning, 
prevention, mitigation, recovery, and they are efforts that are 
relentless and require constant attention.
    You have heard and will continue to hear from mayors that 
we are your first responders in times of disaster and in times, 
as we are today. We are our Nation's first line of defense. Our 
local challenges have been exacerbated by uncertain economic 
times as well at this very, very difficult time.
    For us a model that has worked in Tulsa--and I want to 
speak not so much to the specific project, but the model 
because I think it is one that represents a comprehensive 
approach. We are a Project Impact city, as I have mentioned. 
What that has meant for us is we have had 3 very solid years of 
planning and accomplishments in multi-hazard programs where 
certainly, subsequent to Oklahoma City, we began to target 
terrorism and weapons of mass destruction, but also 
bioterrorism, chemical incidents, and other hazards. It has 
been very important, the reforms and the efforts you have made 
to make FEMA more responsive to the local communities. I want 
to personally thank you because it has meant----
    Senator Mikulski. We did this together.
    Ms. Savage. [continuing] A tremendous amount. Well, thank 
you very much because it really has been very important.

                     LOCAL ACCESS TO FEMA PROGRAMS

    I want to reemphasize that maintaining that connection 
between FEMA at the national level and the local communities, 
it is in our interest and in our citizens' interest to have 
quick, easy access and immediate attention from State and 
Federal agencies, as needs warrant.
    Now we have turned to what we call in our nomenclature a 
safe and secure program that really builds on these basic 
principles. And since September 11, like every other city from 
which you are hearing today, we focused on assessing 
vulnerabilities at critical facilities and correcting 
identified deficiencies to reduce our risk for multiple hazards 
and to become a hard target. Obviously, we continue to have to 
deal with our natural hazards such as wind, tornados, and 
floods, technological hazards such as fire and chemical 
releases, the loss of utilities and communication, and now 
universal hazards as civil unrest and terrorism.
    Our priorities have focused on critical city facilities 
needed to keep Tulsa functioning during any crisis, buildings 
and facilities where large numbers of people congregate, and 
sites with extreme risk such as chemical stockpiles that could 
produce widespread disasters.
    Our safe and secure teams have mobilized virtually all city 
departments and agencies to conduct a fast track pilot project 
that is providing training, building assessment, corrective 
action, and a very long-term capital plan for major projects. 
We have roughly 50 people participating in a technical 
assistance capacity. Half of those are our own city 
technicians. We are using FEMA grant money through Project 
Impact to provide that outside technical assistance that we 
need to ensure that we have covered every potential 
contingency.

                  LOCAL COMMUNITIES ON THE FRONT LINES

    It has become clear, since September 11, that local 
communities--and in our case specifically--we have to do the 
vulnerability assessments and retrofits. It is not enough to 
assess. You have to retrofit your critical government and 
nongovernmental facilities and infrastructure to keep those 
essential services people require operating.
    We have increased detection capability and crisis capacity 
for public health, hospital, and emergency medical services, 
and that is one area where we have some infrastructure in place 
where there is actually some communication occurring among 
those medical providers. Emergency equipment, security systems, 
and backup capacity for communications and emergency management 
operations. While we have some backup, we are reevaluating that 
to look now at what we believe are some new risks and to 
provide additional backup, technical assistance, training and 
public education. You mentioned the need for education. We 
believe the public has to know not only what we are doing to 
try to protect them, but what to do in the event of any 
occurrence.
    Specialized infrastructure programs for buildings that 
house vulnerable populations such as schools, day care, and 
nursing centers, and public housing.
    Targeted demonstration programs to prepare businesses and 
neighborhoods. That includes a variety of contingency planning 
and emergency preparedness and first aid training as several 
examples.
    Incentives for public and private shelter in place in 
evacuation programs which could include MASH shelters for 
multiple hazard, in our case storms, tornados, but terror and 
air quality emergencies.
    We believe our Project Impact model has given us not only 
the physical resources but the time and the planning and the 
capability to pull in over 400 partners throughout our 
community and they are comprised of other governmental 
agencies, schools, business, the faith community, 
neighborhoods, and people who simply have an interest in 
community service.
    So, our essential operations and infrastructure are now 
being evaluated against really a sterner standard, and 
corrective actions, if necessary, are being taken and will 
continue to be taken in order to maintain our local and 
national first line of defense.
    There are costs, and you have heard those costs itemized--
and in the interest of your time, because I know we want to get 
to questions--I will not go through specific costs for Tulsa. 
But I believe there is an opportunity to not only address 
specific emergency and immediate needs but also the long range 
model of which I have spoken for disaster planning, 
preparedness, and mitigation under Project Impact. And I would 
encourage the committee to consider these safe and secure model 
communities, perhaps some kind of 2-year pilot program, to 
bring together the best of the resources at the Federal, State, 
and local level to enable us to continue this planning, to 
continue this effort to be more prepared and to respond when 
emergencies do face us.
    Just in closing--it has been stated, as you get further 
down the row, you hear most of your ideas because there is not 
a lot you will hear among us that is too different. But we have 
the capacity, as I believe you understand, to integrate 
programs and resources at the local level that cannot be 
replicated at the State or the Federal level. We want to be 
partners with the Federal Government and with the State 
government in this war. We need the resources. We need the 
support.
    And I thank you very much for what you have provided us to 
date because we believe we are in the best position to continue 
to respond as we have responded and to do so in an organized, 
comprehensive, and very collaborative manner. Thank you.
    Senator Mikulski. Well, thank you very much. We heard both 
new ideas and how to use existing programs.
    I would like to turn to Mayor Kirk, the Mayor of Dallas. He 
won his last election with 74 percent of the vote. That is 
terrific. He passed six budgets, which means he knows how to 
beat the bottom line, and in addition to the economic 
development and revitalization of Dallas, he has had a chance 
to serve on the advisory board related to the census for mayors 
and also on the empowerment issues about how big cities can 
have a bigger turnout in elections. Mayor Kirk, we welcome you 
and look forward to your remarks.
STATEMENT OF HON. RONALD KIRK, MAYOR, CITY OF DALLAS, 
            TEXAS
    Mr. Kirk. Thank you, Madam Chair, for your graciousness and 
for the time of you and Senator Bond and for being so patient 
with us. I know you have other issues before the Senate.
    I would like to believe I have got three bits for you, 
first of all.
    First is I have submitted my remarks in writing, and so 
there is no need for me to read them in full.
    Second, you may either be pleased or just terrified to know 
that I am a former Senate staffer myself, having worked for 
U.S. Senator Lloyd Bentsen. So, I am intimately aware of how 
much members in your position like for witnesses to abbreviate 
their remarks when they have submitted written testimony.
    Senator Mikulski. We like the witnesses to be short.
    Mr. Kirk. So, I will not do that.
    And then third, I want to begin by thanking you and Senator 
Bond. I am aware that we are before an appropriations 
subcommittee, but I cannot tell you how much and how well it 
was received at our conference that the Senate has addressed 
one of the major issues of concern for the Nation's mayors, and 
particularly for those from large cities like myself that have 
major airports like Dallas and Baltimore and others, that the 
Senate unanimously adopted the aviation security legislation 
that our Senator Hutchison has been urging. We think that is 
one of the critical steps to moving forward.
    Senator Mikulski. She has been the leader in that.
    Mr. Kirk. But the fact that the Senate voted 100 to nothing 
sends a very strong bipartisan note of reassurance to the 
American public that you will put our Nation's security first. 
I want you to know, on behalf of the Conference of Mayors, we 
thank you for that.
    Inasmuch as you have my remarks, you can imagine that I 
concur strongly with the comments of my colleagues. And I want 
to thank Mayor O'Malley, in particular, for his leadership on 
this, his very forceful advocacy of this at the Conference of 
Mayors and in presenting I think a very good overview of the 
nature of the issues and how we want to partner with this 
committee and your colleagues. And I would concur in everything 
he said.
    I would like to make two points, particularly to reinforce 
those. Our experience in Dallas has not been dissimilar from 
any other city. To some degree, we are thankful and grateful 
that, unfortunately, as a result of the tragic events in 
Oklahoma City, Dallas was fortunate to be one of the first 
cities chosen for the Department of Justice programs to put in 
place domestic terrorism training in 1998, and we did have a 
protocol, in fact, for that.
    But the whole issue of bioterrorism, I think because of the 
very nature of it, was one that was predominantly an issue of 
hypothesis for us. And on September 11, as we all know, that 
changed dramatically. And the reality is, I think you know and 
we know, that none of us are prepared at the local level to do 
that.
    We are proud of the fact that what we have at the local 
level are hundreds of thousands of police and firemen who have 
the courage and heart that many of us admire so much now to be 
the first to respond. But we need help.

                 LOCAL GOVERNMENT AND HOMELAND SECURITY

    What we do best is put out fires and chase bad guys and 
work with the FBI occasionally to do something more exotic. But 
if we are going to be an effective partner in this homeland 
security issue, as you have articulated, Madam Chair, and 
others, we need help.
    The best antidote to something as frightening to the 
American people as this whole notion of bioterrorism is what we 
have talked about: education and preparedness. And what we 
would urge more than anything is that we work as a partner with 
you to work on that preparation and making sure our local 
police and fire agencies have as much preparation as we 
possibly can and that the lines of communication, as you have 
said time and time again, Madam Chair, have to be open because 
what we cannot have is our Nation retreating into a climate of 
fear because of lack of information, or worse, misinformation.

                            FEMA FIRE GRANTS

    And finally, what I would ask and I would especially 
encourage that with respect to the FEMA fire grants, in 
particular--and Mayor Griffin addressed that. The good news is 
that is a very effective program, but it is for the most part 
been limited to very small communities. I think that is 
important. They cannot be left out of this equation. But our 
major metropolitan areas, as we go forward--a part of those 
funds have to be reserved for helping our larger metropolitan 
areas prepare for that. Dallas, Texas is the eighth largest 
city in the country now. The State of Texas has 3 of the 10 
largest cities in the United States. We have the largest 
airport in the United States. It is the fourth busiest, and we 
need your help and your assistance in meeting that.
    Then finally, I would only ask as we have had this horrible 
event have the impact of making very, very obvious to us how 
important the role of cities are, particularly as first 
responders and whether it's an issue of domestic terrorism, as 
we witnessed in Oklahoma, or one that has come from a foreign 
nature, as we have seen in Washington and Pennsylvania, that 
cities do matter, and our ability to be a partner is critically 
important to you. I would hope that we would use this as an 
opportunity to address not only partnership and particularly 
resource sharing not just on issues of domestic security but 
that for years cities have raised the specter of unfunded 
Federal mandates and the impacts it has on our local budgets. I 
hope that not only as we address this, that the Senate and 
Congress would be acutely aware of how much we need your help 
in dealing with those other issues as well.

                           PREPARED STATEMENT

    I know the pressures that are on the committee, and I 
really, on behalf of the mayors, want to thank you and Senator 
Bond for your patience in taking the time to hear our 
testimony.
    [The statement follows:]

                 Prepared Statement of Hon. Ronald Kirk

                              introduction
    Thank you Chairman Mikulski, Ranking Member Bond, and Members of 
the Committee for inviting me here today to address issues relating to 
homeland security and FEMA. As mayor of the eighth largest city in the 
Nation, I am glad to have the opportunity to share with you my thoughts 
on the impacts of the recent tragic events and the needs of cities.
    The events of September 11 changed our lives. We are in a new era, 
and it is important for us to recognize the new role we must play 
against the threat of terrorism. No one imagined just a few weeks ago 
that we would be dealing with disasters of this magnitude. It is 
absolutely essential that we have an ongoing dialogue and strong 
intergovernmental cooperation to improve our ability to handle weapons 
of mass destruction and other potential threats, some that we cannot 
even imagine.
    As you know, and as evidenced by the recent tragedies in New York, 
Washington and Pennsylvania, local fire and police departments are the 
first to arrive at scenes of disaster. Our challenge is to ensure that 
we are equipped to respond as efficiently and effectively as possible. 
Unfortunately, our cities are simply not prepared to handle the new 
threats that have emerged over recent weeks. However, just as improved 
coordination and well spent Federal funds have increased our capacity 
to respond to natural disasters and mitigated the damage they cause, I 
am confident that we can meet this new threat.
 the city's use of department of justice domestic preparedness program 
                     funding (nunn-lugar-domenici)
    In early 1998, the City of Dallas began its participation in the 
Domestic Preparedness Program, which provides funding for training and 
equipment to public safety personnel responding to incidents caused by 
weapons of mass destruction. These funds are administered by the U.S. 
Department of Justice and the U.S. Department of Defense.
    The program has served well to enhance Dallas' ability to respond 
to weapons of mass destruction incidents involving chemical and nuclear 
threats. To date, the City has received over $1.3 million dollars, 
which has been used for training and equipment.
                      the fema fire grant program
    Last year, FEMA awarded the first grants under a newly authorized 
program to provide equipment and training to local fire departments. 
Dallas did not receive a first round grant because FEMA focused on 
providing grants to small and medium sized communities that were the 
most lacking in modern equipment. Local government leaders are pleased 
that Congress recognized that there is a legitimate Federal role in 
providing assistance to local governments for fire and emergency 
response personnel and equipment.
                   the need for additional resources
    Although these programs have proven valuable, our current resources 
are simply insufficient given the new threat we are facing. In the 
first 30 days following the attacks of September 11th, the City of 
Dallas spent over $1.2 million just to provide increased security. 
Clearly, more resources are needed. Additionally, the rash of suspected 
biological agent calls since September 11, 2001 has pointed to the need 
to provide assistance to public health agencies and private sector 
medical care providers.
    At present, Dallas has one Hazardous Materials Team (part of its 
Fire-Rescue Department) that responds to incidents--real and 
potential--over a 368-square-mile area. This does not begin to approach 
the resources needed to handle a major biological or other weapon of 
mass destruction attack.
    Dallas' HazMat Team also responds regionally, as one of four HazMat 
Teams in Dallas County. Given the geographical size of Dallas, and the 
size of the regional population this team currently serves (more than 2 
million people), additional monies to train, equip, and maintain more 
teams are integral to a comprehensive homeland security program in 
North Texas. Additionally, future Federal assistance should be geared 
to strengthening regional cooperation in planning and response.
    While the current FEMA Fire Grant Program is a great start and I 
again commend Congress for initiating this important program, the 
volume of applications submitted last year clearly indicates that 
demand outstripped the resources Congress made available for this 
program. In the wake of the September 11 attacks, demand is certain to 
increase. I urge you to provide sufficient resources for this important 
program and to consider turning at least part of it into a formula 
grant program that benefits the Nation's largest cities. I also urge 
you to keep this program as flexible as possible since it is clear that 
many potential threats are unknown and because local governments have 
vastly different needs in this area.
    The City of Dallas was the first in the Nation to address the 
problem of non-emergency calls to 9-1-1 centers. We spearheaded the use 
of 3-1-1 to handle police and fire non-emergency and general local 
government assistance calls. In establishing its 3-1-1 center, the City 
has successfully channeled non-emergency calls away from 9-1-1 
operators. Too often, 9-1-1 operators were tied up with citizens 
complaining about potholes or trash removal. Now, these calls are 
answered through our 3-1-1 call center, which is staffed by employees 
who are trained to handle both 9-1-1 and 3-1-1 calls. (As a result of 
this training when there is an emergency, we have staff on hand to 
immediately handle a larger volume of 911 calls.) No Federal money was 
used in the design and construction of this prototypical program, which 
other cities have used as a model for implementing similar systems.
    Large cities are often focal points for public information on 
disaster related issues, and requests for non-emergency information are 
increasing. Expansion of this function is being fueled by public 
demand, and additional funds to respond to the demand are critical to 
the development of an informed and vigilant citizenry.
                   the city's relationship with fema
    The city of Dallas has been extremely fortunate not to have had a 
major disaster within the last decade, although there is a constant 
risk of catastrophic flooding from the Trinity River, which runs 
adjacent to downtown Dallas and through area neighborhoods.
    FEMA can be a very valuable resource in responding to tragic 
events. However, most of the focus is disaster assistance after the 
event has occurred. In order to best equip local governments, more 
resources need to be directed to FEMA for predisaster planning. Such 
assistance can also be incorporated into a homeland security block 
grant that would support local and regional planning and risk 
assessment.
    Our relationship with the FEMA's Region VI office during disaster 
events has been very cooperative and has proven extremely valuable. 
FEMA teams conducted their inspections of the damage in Dallas County 
following severe tornadoes in 1994 using the City's Emergency Operation 
Center as their on-scene base of operations.
    That spirit of cooperation and teamwork between the City and the 
Region VI office continues today, and serves as a solid framework on 
which emergency assistance is planned and delivered to residents of 
North Texas and should serve as a model of cooperation between the 
Federal and local governments in preventing and responding to the new 
threats we face.
                               conclusion
    Our Nation now faces threats that were unimaginable two months ago. 
As we have seen, local governments provide the first line of defense 
against these new threats. In order to protect our citizens, we will 
need strong cooperation and communication between Federal and local 
authorities and a strong Federal commitment to providing local 
governments with the resources they need to respond to these new 
threats in a manner that offers flexibility to address local conditions 
and to respond to unanticipated needs. Thank you again for the 
opportunity to testify on this important issue. I look forward to 
answering your questions and to working with you to ensure that our 
Nation's local governments are prepared to meet the new challenges we 
are facing.

    Senator Mikulski. Well, thank you very much, Mayor Kirk. We 
always welcome back former Senate staffers.
    Ordinarily I kick off the round of questions, but Senator 
Bond has been very gracious in participating in this hearing. I 
know he is also working on some special projects related to his 
own State. So, do you want to lead off with your questions? 
Then I will do the wrap up.
    Senator Bond. Thank you, Madam Chair.
    Let me first make the comment that it is very helpful to 
hear from you all who are on the front line. Now that the 
Nation's rock star is a mayor from New York, it is nice to see 
how much work and how much good leadership mayors across the 
country are providing. As a former Governor, I used to have a 
little friction with mayors because mayors never think 
Governors are doing enough; Governors always think that mayors 
should be taking a little more responsibility. But we do share 
the common thread of being right there on the ground serving 
our people and you all reflect that.
    I did read your testimony, Mayor Kirk. I note that you have 
suggested, as I think Mayor O'Malley did and several others the 
creation of a homeland grant program. I hope that you will have 
the opportunity or some of your colleagues will have the 
opportunity to present these concerns to our Homeland Security 
Director, Tom Ridge. There are all kinds of plans for him. Some 
want to institutionalize him. Some what to make a Department 
out of him. I hope he just listens and communicates it directly 
to the President and the other agencies and assigns 
responsibility for developing the doctrine and the approach 
that we are going to need.
    This to me is something that you all have to deal with. 
When an emergency hits in your communities, you have it set up 
who is supposed to do what, but when it is beyond the capacity 
of any one community, we need to have a plan for the State 
government to come in, the National Guard is called out, FEMA 
comes in, any other resources. I would just say I hope that you 
all can have input on that.

                     IMPROVING FEDERAL COORDINATION

    Is there any specific thing that any of the three of you 
would suggest that we could do now to assure better 
coordination? I was distressed to hear about the State 
emergency management agency kind of stiffing you I guess in 
Maryland because we had thought in Missouri our SEMA worked 
pretty well. But is there one thing we can do from the Federal 
level right now to improve that coordination?
    Mr. Kirk. First of all, Senator, thank you for your 
comments. I do want you to know and we should have let you 
know, I think we felt very fortunate that we heard from 
Attorney General Ashcroft immediately before we came here. But 
Governor Ridge did spend the morning with us, made a forceful 
presentation. We did present him a list of ideas on behalf of 
the Congress and pledged our full support.
    And many of the issues we pressed with him are those that 
we made today, that we do want this position elevated to as 
strong role as possible, but really wanted to make sure we have 
the communication between his office and ourselves. We asked 
him, more than anything, to be an advocate for the needs of 
local governments in terms of our first response initiatives.
    Senator Bond. Ms. Savage?

                         DIRECT ACCESS TO FEMA

    Ms. Savage. I would be very specific and say to the extent, 
as you evaluate how to expand or look at opportunities for 
expanding resources coming to the local level, that you provide 
some mechanism for cities certainly of our size to work 
directly with FEMA, if that is to be the agency. You do end up 
at times having to wade through the layers of bureaucracy, and 
Senator, I see you smiling, being a former Governor. You have 
heard this before.
    But in a State such as Oklahoma, where you have two major 
metropolitan areas and the rest of the State is very rural, the 
standards and the technical capabilities are quite different. 
And to be treated in a similar manner slows down our ability to 
respond. Oftentimes we are in a situation in Tulsa of providing 
technical assistance and mutual aid to the smaller communities 
around us in the northeastern part of Oklahoma, certainly when 
it is hazardous materials responses. And Missouri shares the 
distinction, along with Oklahoma, of being in the top three for 
methamphetamine labs.
    Senator Bond. We are number two.
    Ms. Savage. We are first or second or third. We are right 
up there with you as well.
    Senator Mikulski. And he is number two in heroin.
    Ms. Savage. So, we have a heightened awareness of hazardous 
materials response as a result of that problem.
    Senator Mikulski. You are not number one in heroin.
    Mr. O'Malley. Yes. I was going to say we are down from 
number one.
    Ms. Savage. An immediate need that I know communities 
looking at responding to letters for anthrax calls and 
heightened security needs is to potentially have some resources 
that come directly to those communities to address those very 
specific needs and potentially for different kinds of equipment 
that we may need, whether it be new bomb equipment--bomb 
detection equipment, not new bombing equipment--hazardous 
cleanup materials, a variety of things that those of us who 
operate large metropolitan and highly sophisticated departments 
need to have available and are being called upon by State 
agencies as well to respond.

                     FIRST RESPONDERS AS RESERVISTS

    Mr. Kirk. I am sorry. I did have one thought that I had 
wanted to put on the table that had not been previously 
mentioned. Forgive me because it was not brought up at the 
conference.
    But one issue that we are facing at the local just in a 
real way--and Mayor O'Malley I think spoke to the fact that we 
do not mind the overtime that we have got to put in for police 
and fire for enhanced security. But one of the realities of 
most of our municipal law enforcement and fire enforcement 
forces around the country is these are the same people that 
also tend to be your reservists.
    So, the practical matter is that we are already stretched 
to the limit. We are now operating at the highest alert, and 
whether it is 30 or 40 in a city like Dallas or Baltimore or 
Tulsa, if we lose 100 police and firemen who are then going to 
be called up to go serve the war, which they will, then under 
the law, we are now required to hold those positions open as 
long as they come back. And we should. But we just do not have 
the capability to go to high alert and absorb the loss of 100 
people for 6 months or 12 months or 18 months.
    If there was anything Congress might be able to do in a 
stop gap way it is to help provide some funding for us to bring 
personnel in to cover that gap because the very people that are 
going to go fight the gopher are the ones that used to be 
patrolling our neighborhoods.
    Ms. Savage. In my police department, we have 60 reservists 
out of a uniform service of 800. We have in the fire department 
25 out of 740 fire fighters.
    Mr. O'Malley. We have experienced roughly the same thing. 
In addition to that, we just took action yesterday at our Board 
of Estimates to come up with new admin rules to cover the gap 
so that when people are called up, not so much--there are the 
Federal reserves and then there's the State-based--one of the 
two--and forgive me for not being able to distinguish this for 
you. But one of the two in some situations would create this 
situation where the person is called up to serve, and then they 
are making less money than they would have, and then the family 
falls behind in the mortgage.
    Senator Mikulski. Substantially less money.
    Mr. O'Malley. Yes. So, we are coming up with something, 
again out of local dollars, to cover that gap because we think 
it is just the right thing to do.

             INTERAGENCY COORDINATION ON HOMELAND SECURITY

    One of the really compelling things that came out of all of 
us coming together--and none of us have wanted to be more than 
a half hour away from our cities for these last 40 days. But 
one of the really compelling things that came out was it was 
just sort of the unanimity of themes. One of them was the one 
that you mentioned, Senator, in your letter of today's date 
about making sure that the model that we have for the Homeland 
Security Chief is one that is much more akin to the Defense 
Secretary than it is to the----
    Senator Mikulski. Drug Czar.
    Mr. O'Malley.--Drug Czar, the Drug Czar that does not have 
any power to coordinate anything.
    I will give you one example, and I will leave his name out. 
You go up to one person responsible for Federal law enforcement 
at a high rank, and you say, you know what? A number of those 
guys who slammed into the World Trade Center and the Pentagon 
had open INS warrants out for them. Are there other people out 
there possibly living in Baltimore that our metropolitan 
fugitive task force, consisting of 70 officers, could help you 
with to prioritize those other folks and serve those warrants? 
And the person's response to me was, well, that is INS. That is 
not my department. I cannot make them do anything. That is 
scary. That is really scary.
    And you are going to get some great information from the 
Conference of Mayors, and it is pulled from a bunch of 
different mayors from all over the country, but the experiences 
are all the same. We need to end this dangerous disconnect. We 
talk a lot about fixing things after a tornado or a hurricane 
or, God forbid, a bomb has wrecked the city, but there is a lot 
more we can do on the prevention end of things. But it begins 
with better sharing of intelligence.
    There is an act now before you, I think, in conference, the 
USA 2001 Act, that makes it easier to break down the barriers 
so INS can share information with the FBI.
    Senator Mikulski. That comes under the Counterterrorism Act 
that we just passed.
    Go ahead, Kit. I am sorry.
    Senator Bond. I, along with Senator Conrad and Senator 
Snowe, authored some INS reforms which mandates that that 
information be shared, first law enforcement agencies sharing 
it with the INS and the State Department. We let Sheikh 
Karakman who did the first World Trade Center bombing come back 
and forth into this country five times. He was on a criminal 
watch list, but nobody told the State Department or the INS. 
That is stupid, and we are mandating that that information be 
shared so we keep those people out.
    Number two, I traveled around with the INS and they really 
have no way of tracking these people. So, we mandate a better 
tracking system so that we know when they come in and we know 
when they leave. The guts of the system--we called it a visa 
bill--is to have a biometric card that is issued by our 
overseas consular office to anybody wanting to come into this 
country. If you want to come in on a tourist visa, a student 
visa, work visa, you get something that positively identifies 
you so we can check you out before you come in. If you come in 
and you disappear, we can share that with the law enforcement 
agencies so that the law enforcement agencies, if they get a 
hit for anything from a DWI to suspicious activities, can track 
that person.
    It is still not going to be good enough, and we do not have 
enough INS agents to track down everybody because the visitors 
come in and they say we are going to go Missouri. We are going 
to see Fabulous Branson. We want to see the Wonders of Wildlife 
Museum in Springfield, Missouri, and then we are going to go up 
to the St. Louis Arch. If they have not left when their visa 
expires, there is no way, even in a little State like Missouri, 
with those three wonderful tourist attractions, that they can 
find them. But if they have a hit with a law enforcement 
agency, that law enforcement agency will see they are out of 
status or they are doing something they are not supposed to, 
and then we can get them out.
    Mr. O'Malley. But we cannot access that now, Senator. 
Unless it was amended in conference, it did not include local 
law enforcement in that intelligence sharing.
    Senator Mikulski. That has not gone to conference.
    Senator Bond. No. We just passed the bill and we direct the 
Director of Homeland Security to set up a system for sharing 
that information.
    Mr. O'Malley. Great.

                       OPEN RECORDS REQUIREMENTS

    Senator Bond. I have got to get out of here and let the 
chair finish up the questions.
    Mayor Savage, something you said just rang a bell. We are 
talking about better communication. We need to share 
information. I have done a lot of work with local officials and 
law enforcement agencies in Missouri on methamphetamine. One of 
the greatest headaches they have is the requirement that 
Congress enacted saying that you have to tell where you are 
storing anhydrous ammonia because every farmer who has 
anhydrous ammonia, a great source of nitrogen--it is also a key 
element in the homemade manufacture of methamphetamine. There 
is now a complimentary web site put up by the meth dealers 
association and it shows in each county the response time for a 
deputy sheriff to each anhydrous ammonia. And we have created 
this web of information that is a road map.
    One of the things that I found when I went back and visited 
municipal water systems, one of my major cities is scared to 
death because they have to disclose where they keep certain 
chemicals that are needed for keeping the water supply safe, 
and there is enough information available in the public to 
provide a road map so somebody coming in from abroad does not 
even have to visit the city to know where the powerful 
disinfectant, potentially dangerous chemical is stored.
    That information must be available to law enforcement, fire 
department, but are we giving too much information to the 
public?
    Ms. Savage. Senator, I might respond in two ways.
    First of all, just recently our city council--and I do not 
serve as a member of the city council. I go on occasion and 
visit with them, but I do not have to sit through the 
meetings--recently passed what they called a public safety 
ordinance, and it was prior to September 11. I argued the fact 
that the level of disclosure in prewar time--we did not know 
the war was coming--potentially defeated the very purpose of 
what we were trying to accomplish, and that was to have a plan 
of action and a variety of things that they thought were 
important. They are now predisposed to amend that ordinance, 
and we are going to do that because, in fact, it has very 
onerous disclosure requirements about very specific elements, 
such as you have just articulated.
    While we are under some pretty rigorous open records 
requirements under State law, there are things that can be kept 
discrete. What we do not want to do with our municipal water 
systems, what we do not want to do with our telecommunications 
systems is, by virtue of creating a security plan, to make 
ourselves more vulnerable by providing access in a very public 
way to these specifics. I think it is important for people to 
know we have a plan, we have contingencies. It is well 
coordinated. It is well funded, but the specifics and the 
details and who does what and where the lock boxes are and all 
those other things I think need to be kept both privileged and 
guarded very cautiously.
    We also share some concerns on the methamphetamine front 
because, as you well know, you have access through the Internet 
to that kind of information that allows you to cook that stuff 
in your home.
    Senator Bond. All the recipes are right there.
    Ms. Savage. All the recipes are there, and you can go to 
your local retail store and your grocery store and buy most of 
the ingredients that you need.
    So, we have access to information, but how that information 
gets used is probably the key.
    Mr. O'Malley. If there were one thing you could do to help 
us, it would be to provide--I think all the mayors would jump 
up and shout hallelujah on this. If there were just one thing 
you could do right now on the funding front, it is to come up 
with a way to reimburse us for at least some of the overtime 
expense that we are suffering with our police department.
    Senator Bond. Do you have any problem with that information 
problem?
    Mr. O'Malley. Yes, sir.
    Senator Bond. Are you concerned about giving people too 
much of a road map? They do not even have to visit Baltimore to 
find out where----
    Senator Mikulski. Senator, we have more than three tourist 
attractions.
    Senator Bond. These are just the three biggest ones. The 
Gateway Arch--never mind. Never mind.
    Mr. O'Malley. Senator, if you notice on your way up 95 as 
you pass the home of the Super Bowl champion Ravens, PSI Net, 
and also Camden Yards, and also off there is the B&O Railroad 
Museum--this is where the railroad started, Baltimore--and also 
the home of the Constellation, if you look off to the right, 
you will see a bunch of chemical plants. They actually had made 
the mistake at one point, just a couple months ago, of posting 
sort of the radius around there, the response times, doing 
exactly what you talked about. In the interest of notifying the 
public of what was there, we created a road map for somebody 
that wanted to mess with it. But that has been taken off the 
web site.
    Senator Bond. We were happy to lend you briefly the 
Lombardi Trophy, but it is coming back to St. Louis.
    Senator Mikulski. Your time has expired. Your time has 
expired.
    Senator Bond. Thank you all very much.
    Mr. Kirk. Senator Bond, the only thing I would echo, to 
make your point real, is obviously any help you can give us on 
that. In our city, of the $1.2 million that we have spent in 
extra security since the bombing, over half of that has been 
securing our water facility and plants for many of the reasons 
you articulated. I know the numbers are even more astounding in 
Baltimore because of the harbor. Obviously any help you could 
give us on that would be appreciated.
    I was desperate, having worked here, not to mention 
anything about football, but since you all kept bringing it up, 
but I guess all we can say these days is thank God for the 
Washington Redskins.
    Senator Bond. Listen, Kansas Chiefs appreciate them too. 
That is the only team we have been able to beat.
    Mr. Kirk. Senator, thank you.
    Ms. Savage. Thank you, Senator.
    Senator Mikulski. I want to make some remarks and then go 
to a few questions. I know that your conference has adjourned, 
and we thank you for making the time for this excellent 
conversation today.
    First of all, more Senators wanted to be here. There are 50 
of us in the Hart Building. The Hart Building is where the 
anthrax letter first appeared, and so there were all kinds of 
security briefings. So, I know many of my colleagues wanted to 
be here. The briefing had to be for the Senator and their chief 
of staff by themselves. I do not know. They could still be 
getting the briefing. So, that is one thing.

            INTERACTION WITH THE OFFICE OF HOMELAND SECURITY

    The second thing is a recommendation, not to pass the buck, 
because I want to come back to what we are doing or should do 
with you. I would hope that the mayors, both the Conference and 
the League--and I would recommend NACO, the National 
Association of Counties, because in our State we have Mayor 
O'Malley, but we have communities, for example, in the capital 
region with County Executive Duncan and County Executive Curry 
that are essentially big city mayors with a different type of 
title. But I would recommend that the leadership, through an 
executive committee or whatever, really ask for a meeting with 
Governor Ridge. These face-to-face conversations--the 
practicality of the issues you have to deal with, plus the 
integration of the issues and the lack of resources and right 
now a structure that is trickle-down money. You have got 
trickle-down information and you have got trickle-down money. 
So, I really would recommend that you reach out to him and ask 
for such a meeting.
    Mayor Savage, did you want to comment on that?
    Ms. Savage. I was just going to comment, Madam Chair, that 
the National League of Cities, the U.S. Conference of Mayors, 
the National Association of Counties, the National Association 
of State Legislators, the Governors Association--there are two 
or three others--are working together to come up with a well 
coordinated statement and an opportunity to meet with Governor 
Ridge.
    Mr. O'Malley. And there was a recommendation today at the 
Conference that we create a permanent board of advisors that 
includes--and I think the police chiefs are with us on this.
    Senator Mikulski. That would be perfect because we could 
have ongoing conversation. Our staffs could be working with 
yours because we are a work in progress.
    Ms. Savage. You bet.
    I brought my police chief who is the Vice Chairman of the 
Major City Chiefs. They are meeting just next week and will be 
meeting with Governor Ridge as well. So, that is beginning to 
happen.
    Senator Mikulski. First of all, I think the National 
Governors Association will have their own way. This is not to 
separate you two, because in some ways your fortunes are 
currently tied to the Governors. And we respect the Governors. 
Obviously, President Bush has picked some of the top people for 
his own cabinet.
    But cities, municipalities are in a totally different 
category because of exactly the way Federal funds come to you 
not only for homeland security but community development block 
money, the Cops on the Beat program. We could do maybe new 
cops, but we have to think about it. The excellent issues that 
you brought up that many of your public safety personnel also 
are providing the national security forces to serve abroad and 
that there is a big gap in terms of their income, which before 
we had the anthrax attack on us at the capital, was an issue I 
was working on with our defense committee.
    This is why these issues need to come to the fore because 
for as hard-working as Governor Ridge is, I am not sure he is 
going to hear the whole story. Just like we do not believe in 
trickle-down information, we cannot have trickle-up.

                          LEAD FEDERAL AGENCY

    So, anyway, having said that, let me go to another issue, 
and then I am going to go to existing programs, new programs.
    If in fact you as mayors either hear the threat of an 
attack or an actual attack has occurred in your community where 
it would have consequences for your community, who do you think 
is in charge and who would you call and who would you expect a 
call from? Who do you think is in charge?
    Mr. Kirk. I do not know who we think is in charge, but I 
can tell you the citizens are going to call 911.
    Senator Mikulski. I know, but I am asking you that. No, I 
really need a practical answer here.
    Mr. Kirk. I would say, at least right now, Senator, we have 
one joint terrorism task force that is coordinated with our 
local FBI and our police chief.
    Senator Mikulski. But who would be in charge in working 
with you from the Federal Government? Are you going to call the 
FBI for anthrax? Do you believe that the FBI is in charge?
    Mr. Kirk. No, no. In that case, in anthrax, I would presume 
that it would be FEMA.
    Senator Mikulski. This is not a confrontational question.
    Mr. Kirk. No, no.
    Senator Mikulski. It goes to, quite frankly, what I am 
apprehensive about. I believe that we do not know who is in 
charge. Do you know who is in charge?
    Mr. Kirk. I am only just saying FEMA because that is the 
only model we have right now. We do not know.
    Ms. Savage. If it is a front end--we had a plane hovering 
over our reservoir lake. Some fisherman thought he saw 
something come out of the airplane. The FBI was notified. They 
responded. It was nothing.
    If it is an after-the-fact, we respond initially and then 
subsequently turn it over either to the FBI, or if there really 
is an incident, then call in FEMA. So, it depends a little bit 
on what the circumstances are.
    Mr. O'Malley. Insofar as threats are concerned, it is the 
FBI. Insofar as mitigating it, it depends on the type of thing. 
Most likely it would be FEMA, depending on the size of the 
casualties.
    Senator Mikulski. So, you think then that FEMA would be the 
coordinator of the technical assistance and advice to help you.
    Let us take what happened to Mayor Williams, and then let 
us take what happened to you, Mayor, last week. And then we did 
the lessons learned from it. Mayor Williams is the Mayor of the 
capital of the United States of America. It is also the home of 
a lot of very hard-working people who work for the Federal 
Government, who are often underpaid, undervalued, and under-
respected like postal employees. Brentwood happens. I wish 
Mayor Williams were here, but that poor guy is running up and 
down right now. Who do you think should be in charge to have 
responded to Mayor Williams? Some people were, but suppose that 
had happened to you.
    Ms. Savage. If that had happened in Tulsa, the initial call 
would have gone to the local police, subsequently to the FBI, 
and then in terms of coming in to try to mitigate or test, I am 
not sure if it is FEMA or the CDC or who comes in to actually 
do----
    Senator Mikulski. Who would you have gone to, to help you 
manage the fear?
    Ms. Savage. I think you have to do that--we all lived 
through that. Anytime you have a Federal declaration of an 
emergency, whether the Governor is by your side and State 
officials are by your side or Federal officials are by your 
side, you are still talking about it locally.
    Senator Mikulski. Mayor Savage, who would you have wanted 
to have turned to if you had to talk to the people of Tulsa 
about a possible anthrax attack at their local postal 
distribution center?
    Ms. Savage. I would be holding press conferences. I would 
be talking through the media.
    Senator Mikulski. I know you would, but what Federal 
officials would you want with you and who would you have 
contacted to get those Federal officials?
    Ms. Savage. I would have asked my police chief to call the 
FBI Director and I would have called FEMA directly or called 
them through the State agency, one or the other. If I did not 
get a response one way, I would go a different direction with 
it.
    Senator Mikulski. Well, I know you would.
    Mr. O'Malley. Can I change my answer?
    Senator Mikulski. Yes.
    Mr. O'Malley. In the event that there were an actual attack 
like Brentwood, definitely the police department would be 
notifying the FBI. At the same time, the health commissioner 
would be there responding with the Cipro packs and trying to 
secure the perimeter and all of that stuff, notifying the local 
hospitals and probably bringing in Secretary Thompson and his 
folks with regard to containing the situation and making sure 
that we set up the treatment and triage and all of that stuff 
and make sure it is contained. In fact, we are doing something 
like that today because our Governor wanted to go to the extra 
precautionary precaution of reaching out.
    Senator Mikulski. I know.
    Ms. Savage. It is also a crime scene. You have that 
element.
    Senator Mikulski. Again, I know the clock is ticking on 
this hearing.
    Here is what happened to us. The FBI came in and it was 
both a crime scene and a public health incident. This means 
that people are coming in for two different reasons. What we 
have to be clear about--and this is, again, a work in 
progress--is that this has to be simultaneous. It cannot be let 
us go in and gather the evidence, and then let us go in and--
because the evidence has to be quickly distributed to public 
health people to find out what was in, say, an envelope. It 
could be somebody's ghoulish joke of putting Sweet N Low in an 
envelope, or it could be anthrax or something else along very 
grim lines.
    So, I think we need better coordination. You are right. FBI 
is crisis management. FEMA is consequence management. That is 
the way it looks on paper and on table-top. But I believe that 
mayors and Governors need a one-stop shop to essentially 
activate whatever is needed, once the situation is described or 
when you would get an alarm, as did Mayor O'Malley, from the 
FBI and he had to take action, that along with the notice, 
there would already be the mobilization of Federal resources 
had that notice of a possible attack on Baltimore taken place, 
so that not everybody just sits around and says, well, we told 
O'Malley it might happen. In other words, the resources should 
already be mobilized as his health commissioner is taking 
action.
    But some things like what happened to our Mayor Giuliani 
just overwhelms, just sheerly overwhelms the local responders, 
and the local responders, the all-hazards responders are the 
first to go down either in your public health area or like with 
your police and your fire.
    Ms. Savage. I go back in my mind to Oklahoma City and to 
the last tornado declaration that we had requiring Federal aid. 
Of course, Oklahoma City was a crime scene, so you had FBI and 
ATF and other folks coming in. But normally you have the 
Governor who triggers the declaration of a natural disaster 
that brings in the Federal assistance and they take over a 
certain aspect of it.
    But it is fragmented, Madam Chair, and in many cases you 
have to rely upon relationships that you have established over 
a period of time in the law enforcement community and in the 
health and human services community, et cetera.
    Senator Mikulski. I know the press is leaving.
    One of the things you should know is that, as I work with 
Senators Kennedy and Frist on bioterrorism legislation, it will 
be very complementary in terms of assistance to State and local 
health departments both for biosurveillance and other very 
important tools. But one of the things I am putting in 
legislation is that there needs to be a designated Federal 
source for public information and that there be a designated 
single voice who would coordinate it. So, it could be the head 
of CDC bringing in other experts and so on. Then also, as my 
conversation with Mayor O'Malley and what he went through, you 
need one voice and multimedia and one voice that can call upon 
experts.
    I think the Giuliani model and the Williams model, who 
actually lived through it--Mayor O'Malley lived through the 
threat--has been an excellent one. Giuliani ran the press 
conferences. What Giuliani did, though, was call upon the 
experts, Federal and State, to do that. He did two things. He 
inspired confidence that the incident, as horrific as it was, 
was being dealt with. Therefore, in the way he did it, he 
managed the fear.
    Mayor Williams has done the same thing as he has done his 
press conferences, calling up his public health officer, his 
police chief, et cetera.
    But you need to have the resources of the Federal 
Government because in these kinds of battles, they could 
overwhelm you. Plus, because we are what we are, the Federal 
Government, with the Centers for Disease Control, the National 
Institutes of Health, the Food and Drug Administration, access 
also to Department of Defense technology, we can be an 
incredible resource to you both in terms of information and 
then because of the treatment.
    I am glad that Mayor Williams and Mayor O'Malley had 
medication ready. But in the event of a horrific incident, had 
this threat been true, O'Malley would have had the national 
stockpile.
    So, those are the kinds of things that I am thinking about. 
Am I on the right track here?
    Mr. Kirk. Absolutely.
    Senator Mikulski. In other words, that you have the 
resources.
    Mr. O'Malley. Whatever the answers, we have to have a 
protocol in place. Again, the one good thing that came out of 
Oklahoma City was we got the domestic preparedness grants 
through the Justice Department and Defense, and right or wrong, 
at least we have a protocol now, and we know if anything 
happens, where that response team is going to be, who has what 
role, and at least we have that. What we do not have is 
anything in a model in this other sense.
    But I think what Mayor O'Malley says is important, and the 
same thing you have said. We have to ensure that Governor Ridge 
has the authority to do more than the Drug Czar.
    Senator Mikulski. Governor Ridge is to be the leader.
    Now, let me just say a couple of things about us, meaning 
the Feds, and let us go to FEMA. First of all, we will be 
moving our appropriations. And you are exactly right. The FEMA 
fire grants, which was to protect the protector, have the 
ability to apply for that, as well as new gear, initially I 
think is focused on small communities who have volunteer fire 
departments who are trying to do this on their own time and 
their own dime. And you can agree, you cannot do this on fish 
fries, bingo, and tip jars.
    At the same time, you are the resource not only for major 
population areas, but then you become the resource for other 
smaller entities. So, we need to look at that.
    Now, OMB wants to create some type of HAZMAT block grants 
to go beyond the fire department. Once we get information from 
OMB, we would like to get it to the Conference of Mayors for 
quick feedback so that we could share this with OMB. They are 
kind of inventing things. They have not consulted with 
Congress, and I am not so sure they have consulted with you. 
But as soon as they consult with Congress, we will consult with 
you, as well as the Governors, because Governors and mayors are 
kind of where it is at. So, that is that.
    The other thing, in terms of the existing programs, I think 
we also have to look at training. From what I can understand, 
there are 20 different Federal agencies doing any terrorism 
training. There are 120 Federal anti-terrorism training 
courses. This looks like this needs to be streamlined. You 
know, I sound like I am in one of our churches.
    Mr. Kirk. No. You are on a roll. Do not stop.
    Senator Mikulski. Am I witnessing here?
    Ms. Savage. Hallelujah.
    Mr. Kirk. We will say amen.
    Senator Mikulski. Should this be an area of an initiative 
to streamline? See, I think streamlining could be done by 
really an executive order, which would go directly to President 
Bush through Mr. Ridge.
    But right now, I think we need to fund existing programs 
and then look at what you are saying for the new ones, whether 
it is this homeland block grant.
    But what I would like from you, Mayor O'Malley, and from 
the mayors is if we would say, do a new homeland security block 
grant, what would be its elements, in other words what it would 
fund? And I say this with enormous collegiality. As we are 
moving on homeland security, everybody is trying to hitchhike 
on this for all the other things that we do not give you enough 
money for.
    Mr. O'Malley. Right.
    Ms. Savage. Absolutely.

                 HOMELAND SECURITY BLOCK GRANT PROGRAM

    Senator Mikulski. So, they are trying to hitchhike, and 
therefore, it looks like everybody is trying to have--some of 
the requests are excessive or whatever.
    But really, what would be funded under a homeland security 
block grant? I like your Project Impact idea, the Nunn-Lugar, 
whatever. But let us look at existing programs where you would 
need more money. Let us look at new ways for existing programs 
and then some of these new ideas, which I think are 
tremendously interesting.
    Ms. Savage. Madam Chair, I would add to that, because I 
think you are absolutely on the right track, standards of 
performance that you think are important.
    Senator Mikulski. For the training?
    Ms. Savage. That you think are important for communities to 
produce. If you are going to appropriate block grants for 
training, for equipment, for a variety of things, what 
standards are we meeting, what performance expectations do you 
have? Because I think, especially on the training side, I was 
unaware there were so many agencies providing training, but the 
training may vary and it may not be as good one place as the 
other.
    Senator Mikulski. What was the block grant that we had once 
for crime?
    Ms. Savage. Local law enforcement block grants right now, 
LLEBG. Oh, LEAA. That is way back when.
    Senator Mikulski. My mind is like the CNN screen. I have 
got you on my main screen. I have got something on the side and 
something running. You know how this goes. You can see why he 
and I get along.
    Senator Mikulski. Do you remember that? Gosh, when they 
first came out, it was a disaster. Everybody was in buying a 
lot of gear from a lot of consultants that ultimately did not 
add to the security of communities and hit you with a lot of 
maintenance costs for essentially junk.
    And we do not want this here. In other words, if you need 
telecommunications equipment, terrific. If you need to have the 
flexibility for training, but also then resources, that after 
people have been trained, that they do have what they need, 
fine. And I am not saying we should go the block grant route, 
but we need to be able to propose these ideas, and what we are 
looking for for the block grant would be exactly what you are 
saying.
    But here, right now, we are going to, in this year's 
appropriations, have $150 million for the fire grant program. I 
wanted to take it to $300 million. So did my dear colleague. 
And we thought we were going to get this in the emergency money 
that is coming through for New York and other communities. That 
is when OMB began to invent this HAZMAT thing. You see what I 
am saying?
    Now, the nice thing about the fire department help was that 
we know what it is for. It is to protect the protector, 
particularly through protective gear, knowing that our 
responders are now all hazard responders. And then the other is 
for the equipment that you, you meaning your fire departments, 
would need. That is so specific, it has not gone off.
    You are exactly right. I do not know which one of you said 
it. We had a $100 million program. We got $3 billion worth of 
requests. I read a lot of requests out of my own State, which 
was for $38 million. Every one of them was worthwhile. I mean, 
I could have written you a check for every single one because 
they all were in those two categories.
    So, I am not for creating a whole big, new program just to 
create it. Let us use what we have existing and then really 
listen to the mayors and the Governors and then come up with 
what should be the new.

              PUBLIC VS. PRIVATE SECURITY RESPONSIBILITIES

    Mr. O'Malley. If I could add one other consideration to 
your plate, Senator.
    Senator Mikulski. Yes, and then Mayor Savage and then Mayor 
Kirk, and then we are going to wrap up.
    Mr. O'Malley. Whose responsibility is it to protect the 
public against the ubiquitous chemicals that all industry and 
private people transport and that go through our population 
centers? I would rather not have to surveil, have security 
people watching CSX lines, and have to build a fence around the 
open rail yards that store chlorine tanks.
    Senator Mikulski. I do not think that is your 
responsibility.
    Mr. O'Malley. I do not think it should be local governments 
either. I think that should be something these private 
companies do. But right now we are guarding them.
    Senator Mikulski. Well, I think you have two things. One, 
public rail facilities. In other words, public infrastructure 
should be protected, yes, like the railroad tunnels. Private 
entities. I really think that there either has to be private 
responsibility or some type of partnership.
    I know what Mayor Griffin said and he loved Bush's recovery 
plan. But I would much rather be giving tax breaks to do a 
couple of different things. One, for the private sector to 
upgrade their infrastructure and let us have a public/private 
partnership, exactly what you are talking about. Some of the 
cargo tunnels would be an example in our corridor.
    Then there is this whole other world we have to be thinking 
of. We are focused on homeland security, but we still have to 
educate our children, keep our libraries open, do the regular, 
usual, and customary of municipal government. Trash has to be 
collected. Things have to be recycled. You have got to comply 
with the mandate to educate special needs children, and which 
we only pay 10 percent of the cost when we promised you 40 
percent of the cost, meet the needs of those children, but not 
short-change you in responsibility sharing. So, this is where I 
think we should be spending our money.
    I make $150,000 a year. I do not need another tax break. I 
really do not need another tax break. But what I do think is--
except in my property tax.
    Senator Mikulski. But I really think what I am worried 
about is that as you meet these costs, the money has got to 
come from somewhere, and you have got schools, libraries, 
special education. Literally all children are special. Some 
have unique needs.
    Am I on the right track here, that this is one of the 
things that puts you on kind of Mylanta that you are going to 
wonder how to do both?
    Ms. Savage. Well, Madam Chair, we are breaking ground on 
our HOPE VI on Tuesday. Thank you very much. And we are very 
excited about it. So, I think that is the point you would hear 
from all of us, that life in a community has to continue. You 
have to educate children. You have to rebuild your 
neighborhoods. You have to have good quality housing and good 
health care.
    I would make, in addition to what Mayor O'Malley said about 
the private sector and their responsibility for hazardous 
materials, a general statement that I believe at the local 
level we have a responsibility to provide basic public safety 
services, police and fire. What I have been trying to 
emphasize--and I think my colleagues--we have some 
extraordinary costs and functions now that exceed that basic 
level of service, and that is where I would draw the line. I 
would say local communities provide your basic service, but the 
overtime, the hazardous materials, et cetera ought to be 
addressed.
    Thank you.
    Senator Mikulski. Well, Mayor O'Malley, thank you also for 
bringing to our attention the fact that MEMA has not released 
any money for fiscal year 1999, fiscal year 2000, and fiscal 
year 2001.
    Mr. Carliner, I need you to write a letter to Governor 
Glendening. Let us ask where this money is because it should 
not be just sitting there. We worked very hard to put that in 
the appropriations, and it has got to get out and it has got to 
get out fast. So, we thank you.
    Mr. O'Malley. Thank you for all you do for America's 
cities, Senator.
    Senator Mikulski. Well, this was really informative. So, I 
want to just thank you on behalf of the Senate. For those who 
are not here, we have a permanent record.
    Really, you are going to have some type of task force or 
group, and we would like to have an ongoing relationship with 
you in two areas: homeland security and what you think we 
really need to be looking at, particularly in our issues like 
HUD and EPA.

                         CONCLUSION OF HEARING

    So, God bless you. God bless America. This subcommittee is 
recessed until further call of the Chair.
    [Whereupon, at 3:45 p.m., Thursday, October 25, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
